<html>
<title> - CAMP ASHRAF: IRAQI OBLIGATIONS AND STATE DEPARTMENT ACCOUNTABILITY</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]





   CAMP ASHRAF: IRAQI OBLIGATIONS AND STATE DEPARTMENT ACCOUNTABILITY

=======================================================================

                             JOINT HEARING

                               BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                AND THE

                            SUBCOMMITTEE ON
                     THE MIDDLE EAST AND SOUTH ASIA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 7, 2011

                               __________

                           Serial No. 112-92

                               __________

        Printed for the use of the Committee on Foreign Affairs



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>





 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE
71-620 PDF                WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001













                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey
EDWARD R. ROYCE, California          BRAD SHERMAN, California
STEVE CHABOT, Ohio                   ELIOT L. ENGEL, New York
RON PAUL, Texas                      GREGORY W. MEEKS, New York
MIKE PENCE, Indiana                  RUSS CARNAHAN, Missouri
JOE WILSON, South Carolina           ALBIO SIRES, New Jersey
CONNIE MACK, Florida                 GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
MICHAEL T. McCAUL, Texas             DENNIS CARDOZA, California
TED POE, Texas                       BEN CHANDLER, Kentucky
GUS M. BILIRAKIS, Florida            BRIAN HIGGINS, New York
JEAN SCHMIDT, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
BILL JOHNSON, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
DAVID RIVERA, Florida                FREDERICA WILSON, Florida
MIKE KELLY, Pennsylvania             KAREN BASS, California
TIM GRIFFIN, Arkansas                WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
ROBERT TURNER, New York
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director
              Subcommittee on Oversight and Investigations

                 DANA ROHRABACHER, California, Chairman
MIKE KELLY, Pennsylvania             RUSS CARNAHAN, Missouri
RON PAUL, Texas                      DAVID CICILLINE, Rhode Island
TED POE, Texas                       KAREN BASS, California
DAVID RIVERA, Florida

                                 ------                                

             Subcommittee on the Middle East and South Asia

                      STEVE CHABOT, Ohio, Chairman
MIKE PENCE, Indiana                  GARY L. ACKERMAN, New York
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
ANN MARIE BUERKLE, New York          DENNIS CARDOZA, California
RENEE ELLMERS, North Carolina        BEN CHANDLER, Kentucky
DANA ROHRABACHER, California         BRIAN HIGGINS, New York
DONALD A. MANZULLO, Illinois         ALLYSON SCHWARTZ, Pennsylvania
CONNIE MACK, Florida                 CHRISTOPHER S. MURPHY, Connecticut
MICHAEL T. McCAUL, Texas             WILLIAM KEATING, Massachusetts
GUS M. BILIRAKIS, Florida
TOM MARINO, Pennsylvania
ROBERT TURNER, New York











                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Daniel Fried, Special Advisor on Ashraf, U.S. 
  Department of State, accompanied by Mrs. Barbara Leaf, Deputy 
  Assistant Secretary for Iraq, Bureau of Near Eastern Affairs, 
  U.S. Department of State.......................................    12
The Honorable Lincoln P. Bloomfield, Jr., chairman, Henry L. 
  Stimson Center.................................................    32
Elizabeth Ferris, Ph.D., co-director, Brookings-LSE Project on 
  Internal Displacement..........................................   138
Colonel Wes Martin, USA (Retired), (former base commander of Camp 
  Ashraf)........................................................   145

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Daniel Fried: Prepared statement...................    15
The Honorable Lincoln P. Bloomfield, Jr.: Prepared statement.....    35
Elizabeth Ferris, Ph.D.: Prepared statement......................   140
Colonel Wes Martin, USA (Retired): Prepared statement............   147

                                APPENDIX

Hearing notice...................................................   224
Hearing minutes..................................................   225
Colonel Wes Martin, USA (Retired): Material submitted for the 
  record.........................................................   226

 
   CAMP ASHRAF: IRAQI OBLIGATIONS AND STATE DEPARTMENT ACCOUNTABILITY

                              ----------                              


                      WEDNESDAY, DECEMBER 7, 2011

          House of Representatives,        
                           Subcommittees on        
                  Oversight and Investigations,    
                and the Middle East and South Asia,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittees met, pursuant to notice, at 2:55 p.m., in 
room 2172, Rayburn House Office Building, Hon. Dana Rohrabacher 
(chairman of the Subcommittee on Oversight and Investigations) 
presiding.
    Mr. Rohrabacher. This joint hearing of both the Oversight 
and Investigations and Middle East and South Asia Subcommittees 
will come to order.
    Ladies and gentlemen, thank you very much for coming today. 
I want to thank my colleagues for joining us.
    We are going to open up this hearing with an introduction 
to the subject matter with a video shot earlier this year 
showing the events just before and during and after the April 8 
attack on Camp Ashraf by Iraqi soldiers operating under the 
orders of the Baghdad government of Prime Minister Maliki. It 
is a short video, about 1 minute. It was filmed by a resident 
of Camp Ashraf and edited from a much larger collection of film 
recorded during those days.
    The narrative is that while U.S. military personnel were 
present the Iraqi forces were held in check, but when the U.S. 
soldiers were ordered to leave the area, the Iraqi troops 
attacked. Later confirming the casualties of the attack, U.S. 
personnel did return to give aid to the wounded and take 
witness of those who had been killed.
    And, again, this hearing is a hearing of two subcommittees. 
We will be giving opening remarks after this short video.
    [Video shown.]
    Mr. Rohrabacher. I would like to draw attention also to the 
posters underneath the monitors. If you noticed during the 
video, you saw that gentleman aiming his rifle and shooting. 
That was what we call premeditated murder. The people who were 
being targeted by that individual, who was aiming his gun, were 
unarmed civilians. This, in itself, is--I guess when they kill 
one or two people, it is murder; when you kill tens of people, 
it becomes an atrocity and perhaps even a war crime. And the 
fact that this was being done by--at least with the approval of 
the Iraqi Government is something that is of great concern to 
the United States, especially when the beginning of the video 
shows U.S. troops exiting the area just prior to this atrocity.
    This hearing is the last chance for Congress to impress 
upon the State Department the gravity of the crisis that we 
face and the stain on American honor that will result if action 
is not taken to avert another massacre of unarmed civilians in 
Camp Ashraf. If that bloodletting happens, it will be a crime 
perpetrated by a conspiracy between Iraqi Prime Minister Maliki 
and the Iranian theocracy which is pulling the strings.
    Whatever has been going on for two decades, since the 
arrival of U.S. forces in 2003, Camp Ashraf has been a peaceful 
community of political dissidents and refugees which is 
certainly a community--since we have arrived there in 2003--
which does not deserve the label of terrorist, as we have been 
told by the U.N. High Commissioner for Refugees that the U.S. 
terrorist designation--and this is representatives of the U.N. 
High Commissioner, I might say--have in the past told us that 
the terrorist designation is a major obstacle to finding safe 
places to relocate Camp Ashraf's residents outside of Iraq.
    If these people in Camp Ashraf are forced to stay in Iraq, 
the United Nations High Commissioner for Refugees believes the 
Maliki regime may pull 50 to 60 individuals out of Ashraf and 
deport them to Iran. This because the mullahs in Tehran have 
listed them as a terrorist organization and these people that 
they would pull out have been designated by Tehran as 
terrorists with Interpol. And the United States' listing of the 
MEK as terrorists will be used by Maliki to justify his 
murderous cooperation with Iran.
    Why are we, the United States, being an accomplice to this 
crime? If they are deported or subjected to another massacre, 
the blood in the sand will also stain the Gucci shoes of our 
U.S. State Department.
    At the end of the year, which is only 24 days away, all 
American military personnel will have left Iraq. On that same 
day, the Baghdad government of Prime Minister Maliki has 
decreed that Camp Ashraf is to be closed. For more than 20 
years this camp has been home to 3,400 members of the People's 
Mojahedin Organization of Iran, also known as the MEK, a 
secular opposition group in exile working against the bloody 
Islamic mullah dictatorship in Iran.
    Maliki will disperse the residents to new camps which may, 
in reality, be prisons. His objective is to deport the Iranian 
dissidents or at least their leaders to Iran where they will be 
imprisoned and, it is easy to predict, imprisoned, tortured, 
and killed.
    Maliki's alignment with the vicious Iranian theocracy is 
clear. To please his Tehran masters, he has already inflicted 
violence and death on the Camp Ashraf population. As we have 
just seen, in the early hours of April 8 this year, units of 
the Iraqi Army numbering 2,500, including armored vehicles, 
assaulted unarmed Iranian civilians at Camp Ashraf, murdering 
at least 34 residents and wounding hundreds more. As we saw in 
the video, this wasn't just random shooting. There were 
individuals who were picking out targets, unarmed people, and 
shooting them, as if they were deer in a deer hunt, as we just 
saw.
    We also just saw that American military personnel were 
pulled out of the camp just hours before that attack. What does 
that tell us? What does that tell us? Someone made that 
decision. This was an atrocity and a crime against humanity.
    Some media outlets have noted that the attacking troops 
were ``armed and trained by the United States.'' And when you 
see that and you see that group of dead bodies and you notice 
that all of these people were unarmed, this is a shame on them 
and a shame on us.
    Camp Ashraf residents had been promised protection under 
the Fourth Geneva Convention by senior U.S. commanders in Iraq. 
There is a poster right there that is showing an ID card that 
was issued to a camp resident and the agreement--I guess that 
is what this one is that I was pointing to before we started. 
This poster shows the agreement between the camp and the United 
States, trading a pledge of peace and disarmament for American 
protection.
    The reason the camp was disarmed, the reason these people 
had no means of defending themselves was that they had made an 
agreement with the United States Government to disarm and, 
thus, they were shot down as if they were deer being hunted by 
hunters, no way to defend themselves.
    When sovereignty was turned over to Iraq, the transfer of 
responsibility for Camp Ashraf to the Baghdad government was 
conditioned on a direct promise that the residents would 
continue to be protected. In April, the United States utterly 
and completely failed its responsibilities after making that 
promise to the people of Camp Ashraf.
    After the attack, the State Department asserted that a 
``crisis and loss of life was initiated by the Government of 
Iraq and the Iraqi military.'' But what about before the 
attack, as I just mentioned? The U.S. Embassy and the commander 
of U.S. forces undoubtedly knew of the Iraqi military build-up 
outside the camp. Was the Iraqi Government then contacted? We 
need to know that. If so, what was the Iraqi response when we 
contacted them?
    And as I mentioned before as well, the U.S. military unit 
deployed near Camp Ashraf was ordered away just before the 
attack. Well, obviously--if not obviously, perhaps on the face 
of it, it appears to be that there was a conspiracy, including 
our Government and the Maliki government, to commit murder, to 
take the lives of unarmed people.
    So who in our Government knew about this? What type of 
agreement was made? And why was nothing done to prevent it if 
we did know about it? We wanted to ask the State Department 
officials these questions but were told no one was available to 
testify at the hearing of this subcommittee on July 7.
    Late yesterday, we finally received a letter in partial 
response to the questions we have sent to the State Department 
over 5 months ago. We will consider the response and may ask 
for more clarification and information after today's hearing.
    Our priority is now to learn what will happen in the 
future. Will we be turning away again? What can people expect? 
Will we turn away? And what happens if there is another 
massacre in the making? We are just going to walk away then? 
What will be our position if there is another massacre? And 
will the residents just end up in concentration camps or in 
jail or being tortured in Iran or Iraq itself? Will we and can 
we, are we even trying to evacuate the residents of Camp Ashraf 
in the next 3 weeks?
    America has spent its blood and treasure, $1 trillion, the 
blood of thousands of our young men and women, only to allow a 
government to come to power in Baghdad that is the puppet of 
the Iranian mullah dictatorship, the most dangerous enemy of 
America and threat to peace and stability in the Middle East; 
and the government that we have fought and paid for and bled 
for in order to bring into existence has now become their ally.
    In his recent op-ed in The Washington Post, Prime Minister 
Maliki cited the U.S. listing of the MEK as a terrorist group 
and called them ``insurgents,'' using this justification for 
his intransigence toward Camp Ashraf. So if the Iraqi Prime 
Minister cannot discuss U.S.-Iraqi relations without mentioning 
Ashraf and cannot mention Ashraf without mentioning the 
terrorist listing, how can we deal with this issue without 
talking about our Government's listing of the residents of Camp 
Ashraf as being terrorists?
    In 1997, Iran persuaded the Clinton administration to put 
the MEK on the State Department's Foreign Terrorist 
Organization List. This naive gesture was supposed to improve 
relations with Tehran. But the relations did not improve, and 
Iran continues to support violence across the region and crush 
dissent at home and develop nuclear weapons capabilities that 
we have no idea whether we are the target or Israel or some of 
the other countries which the mullah dictatorship doesn't like.
    We have been told that the State Department is re-
evaluating the MEK's designation as terrorists. In her 
appearance before the Foreign Affairs Committee on October 27, 
Secretary of State Clinton acknowledged that the European Union 
has taken the MEK off its terrorist list, which it did in 2009. 
The State Department hasn't taken them off the list. But the 
Europeans have done so. And the clock is running out.
    The U.S. should continue to insist that the promise given 
by the United States to the residents of Camp Ashraf and the 
promise then given by the Iraqi Government to us must be 
respected and upheld. This is not just a matter of decency but 
of the credibility of the Maliki government and the honor of 
the people of the United States. The Iraqi Government must 
allow the U.N. High Commissioner for Refugees to fulfill his 
mission in moving the residents of Camp Ashraf out of Iraq to 
safe havens in other countries with the full support of the 
United States.
    But as I mentioned before, I have been personally told by 
UNHCR officials that this terrorist designation maintained by 
the United States is an impediment to finding places to 
relocate the residents of Camp Ashraf outside of Iraq.
    I hope that our State Department witnesses can assure us 
today that these objectives will be accomplished before the end 
of December when the absence of U.S. troops will change the 
reality and that the residents of Camp Ashraf will be at the 
mercy of Iraqi forces under the command of a political leader 
who is in cahoots with the Iranian mullah dictatorship.
    All of our other members will be given time for opening 
statements. But, Mr. Carnahan, would you like to proceed with 
your opening statement?
    Mr. Carnahan. Thank you, Mr. Chairman; and thank you for 
your dedicated work on this issue. Thank you for having this 
follow-up hearing, as promised.
    In light of recent events, the trip you led to Iraq a few 
months back and the scheduled departure of the U.S. military in 
just a few short weeks, this hearing provides a timely 
opportunity for us to once again assess not only the precarious 
humanitarian situation at Camp Ashraf but also to consider the 
broader issues of the U.S.-Iraq policy going forward.
    I am fortunate to represent an active Iranian American 
community back home in St. Louis who care deeply about family 
members and residents at Camp Ashraf. I am glad to have some of 
them here today. Welcome again and thank you for your advocacy 
and being part of this effort.
    In 2003, the residents of Camp Ashraf were granted 
protected status under the Geneva Convention. Pursuant to the 
status of forces agreement between the U.S. and Iraqi 
Governments, however, jurisdiction of the camp has been under 
Iraqi jurisdiction since 2009. With the draw-down of U.S. 
forces in Iraq and the Iraqi Government's repeated calls for 
the residents to leave Iraq, there is a serious concern about 
the safety and welfare of the residents. The administration has 
raised concerns about their safety, and I will be interested to 
hear what progress has been made through our bilateral and 
multilateral efforts.
    In addition to ensuring that the rights of the residents 
are maintained, I am also interested in an update from our last 
hearing on relocation efforts. Several hundred have returned to 
Iran with the help of the international Red Cross, and the U.S. 
has offered to help relocate residents prior to internationally 
coordinated closure of the base.
    I would like to hear the witnesses discuss what options are 
available moving forward, what implications those options have 
on U.S. policy to Iraq as well as Iran. Specifically, would it 
be beneficial to know what other countries have shown a 
willingness to admit residents?
    Turning to the broader issues of U.S. policy toward Iraq 
following the troop withdrawal at the end of this month, I 
would like to hear each witness discuss the challenges ahead as 
our policy in Iraq shifts to becoming a State Department- and 
USAID-led effort, focusing on diplomacy and development.
    The safety of residents at Camp Ashraf poses immediate 
concern, but I am also interested to hear what our continued 
efforts in the country will look like. I look forward to the 
hearing today. Again, Mr. Chairman, thank you for your 
continued efforts to champion a humanitarian solution for this 
issue.
    Mr. Rohrabacher. Let me just note that these humanitarian 
and human rights challenges that we face are confronted by a 
united Congress in the United States, and the bipartisanship 
that has been demonstrated by Mr. Carnahan and my fellow 
colleagues is an example to the rest of the world where people 
who believe in freedom can work together.
    And I would like to ask for unanimous consent that Mr. 
Filner, Congressman Filner from San Diego who is not a member 
of this committee but has been very active on the issue, be 
permitted to sit in with us and be treated as a member of the 
committee for today.
    Hearing no objection, so ordered.
    We now would like to call on Representative Chabot, the 
chairman of the Middle East and South Asia<greek-l>n deg. 
Subcommittee, who is officially the cosponsor or is cochairing 
this event. And we appreciate hearing your opening statement, 
Mr. Chabot.
    Mr. Chabot. Thank you very much. Good afternoon.
    Let me begin by thanking my colleague, the gentleman from 
California, the chairman of the Subcommittee on Oversight and 
Investigations, Mr. Rohrabacher, for calling this timely and 
important joint hearing with the Subcommittee on the Middle 
East and South Asia that I happen to chair.
    This hearing was scheduled to begin at 2:30. We got started 
a little bit late, and I have another meeting that I have to be 
at at 4 o'clock. So I am going to have to leave then, but my 
staff will be here and remain and make sure that we hear 
everything that has been said here today.
    In January 2009, the Iraqi Government took the sovereign 
control of Camp Ashraf and responsibility for the 3,400 
residents living in it. Since then, there have been several 
extremely disturbing incidents, one of which we just saw, which 
resulted in the deaths of Camp Ashraf residents. I am 
particularly disturbed by the deaths of as many as 35 residents 
of Camp Ashraf, resulting from clashes with Iraqi forces on 
April 8, 2011, again.
    Reports of shortages of food, fuel, and medical supplies 
are also very concerning. This is simply unacceptable. The 
Iraqi Government must take all necessary and appropriate steps 
to prevent the loss of life.
    Although the status of the individuals residing at Camp 
Ashraf continues to pose a deeply problematic challenge, it is 
incumbent on all parties to ensure that no harm comes to its 
residents. Accordingly, the overriding objective of the Obama 
administration's dialogue with Iraq on the matter of Camp 
Ashraf should first and foremost be to encourage the protection 
of the camp residents, ensure appropriate humanitarian aid is 
provided for the residents, and ensure that the Iraqi 
Government lives up to the obligations which underlie the 
transfer agreement. As the international community works to 
resolve the difficult dilemma, no further harm must come to the 
camp residents.
    As we work to resolve this situation, however, it is 
incumbent on all parties to remember that the 3,400 residents 
are not just words on a page but people, human beings. The 
status of the residents of Camp Ashraf is a complex issue and 
one that requires an international solution which takes into 
account the desires of the actual residents.
    Correspondingly, I would like to echo recent calls to push 
back the December 31 deadline to close Camp Ashraf. I fear that 
trying to rush a solution only risks further harm to the camp 
residents. Although permanent homes for these residents will 
certainly take time to find and, as such, patience will be 
required on the part of all concerned parties, it is critical 
that the international community understand the urgency of the 
situation and proceed expeditiously.
    I want to again thank Chairman Rohrabacher for calling this 
hearing. I look forward to hearing the testimony of the 
witnesses. I yield back my time.
    Mr. Rohrabacher. Thank you very much.
    Ms. Chu, do you have an opening statement?
    Ms. Chu. Well, I would like to ask unanimous consent to be 
a guest and to be able to----
    Mr. Rohrabacher. To be last? Yes, no problem. To ask 
unanimous consent to be first is a difficult one.
    I would like to recognize Congressman Poe.
    Mr. Poe. Thank you, Mr. Chairman.
    We have a crisis that is taking place halfway around the 
world, and the United States should be aware of this crisis and 
the impending deadline. December 31st in the United States 
comes with fireworks, New Year's Day, but there also may be 
fireworks and fire in Camp Ashraf unless the United States 
intervenes to make sure something bad does not happen.
    In 24 days, the Iraqi Government has promised to close down 
Camp Ashraf. Where the residents will be forced to go, we 
really don't know. They could be expelled to Iran, where many 
of them will face death, in my opinion. The little tyrant from 
the desert Ahmadinejad and his Iranian regime have already 
murdered hundreds of their family members. Those people in Camp 
Ashraf could be located to another place in Iraq.
    And why would the Iraqi Government want to close down a 
camp and just move them to another camp in Iraq? Well, because 
the Iraqi Government knows that the phrase ``Camp Ashraf'' is 
known throughout the world as a place of refuge for Iranian 
freedom fighters. Iraq knows if it attacks the residents while 
they are in Camp Ashraf they will face worldwide condemnation, 
like they did in 2009 and 2011 when they massacred over 40 
unarmed civilians. As related by my colleagues, those were 
people that were killed. They are not statistics. They were 
real people. And these 47 people are dead because the Iraqi 
Government killed them. Two times, two assaults on the camp.
    Is this what is going to happen on January 1 unless the 
United States intervenes? We don't know. But do we allow this 
to occur? I hope not. And it is unfortunate--or maybe 
fortunate--that some of the family members of these 47 people 
are here with us today, pleading that Congress act to prevent 
another massacre of citizens in the camp.
    The residents of Camp Ashraf said they don't trust the 
Iraqi Government. I don't blame them. They have invaded their 
camp twice. I have a letter here to a member of the European 
Parliament by members of the camp who believe that on January 
1, unless something occurs, they will face certain death, and 
they will not go away voluntarily. They won't resist, but they 
will not go away voluntarily. They do not want to be moved 
because they think it is certain death.
    What the residents want is to be moved to another country 
besides Iran. The residents of Camp Ashraf have applied to be 
recognized as political refugees by the United Nations. Iraq 
knows that if the residents get refugee status, they won't be 
able to violate their human rights without more serious 
consequences. So with strong pressure from the Iranians, Maliki 
and his thugs are closing the camp on December 31 before the 
U.N. refugee process can finish.
    As you know, Mr. Chairman, I went with you on June 11 to 
Iraq, along with the ranking member and others from this 
committee, and you asked Maliki if we could go to Camp Ashraf 
and see what happened, get the residents' point of view of what 
is taking place. He was indignant. He refused to let us go to 
Camp Ashraf. In fact, the reason he used was because our 
Government has labeled the MEK as a foreign terrorist 
organization. Therefore, he closed the camp to us.
    He was so incensed that what occurred later made the 
international press--primarily in Europe; it wasn't mentioned 
in the United States--but while we were flying to another 
portion of Iraq, we found out through the State Department that 
we had been evicted from Iraq for asking the question to go to 
Camp Ashraf. And of course we stayed as long as we wanted to. 
But that is Maliki's point of view and his reaction to the 
question that was asked, if we could visit the camp.
    On December 12, Maliki will be in the United States. He 
will be in Washington, DC. I am gathering a letter with 
signatures to the President urging him to raise the Camp Ashraf 
issue during this meeting. We have 47 signatures. We hope to 
have more.
    The clock is ticking. The days are numbered. I hope the 
witnesses today can exactly outline specifically what will be 
done by this administration to protect the residents of Camp 
Ashraf. I hope we don't hear, as in my opinion we have heard in 
the past, more comments about why our Government continues to 
side with the Maliki government and the interests of Iran over 
the freedom fighters in Camp Ashraf. And I yield back.
    Mr. Rohrabacher. Thank you very much, Your Honor. And I 
always appreciate the members of my committee following my lead 
and taking a soft-spoken approach to these challenges.
    Congressman Rivera.
    Mr. Rivera. Thank you, Mr. Chairman. But I believe just 
previously Congresswoman Chu was asking unanimous consent to be 
a guest, not to be last.
    Mr. Rohrabacher. Was that last or a guest?
    Ms. Chu. It was a guest.
    Mr. Rohrabacher. How about both?
    Mr. Rivera. I will certainly yield to the gentlewoman from 
California. Ladies first.
    Mr. Rohrabacher. Please continue, Mr. Rivera, with your 
opening statement, and then our two guests will be permitted to 
have opening statements as well.
    Mr. Rivera. Perfect. Thank you, Mr. Chairman. And I will 
adhere to your 2-minute admonition as well.
    My main question I would like answered during this hearing, 
Mr. Chairman, particularly from Ambassador Fried, is this issue 
of the arbitrary December 31 deadline and what is the United 
States doing to avoid what can only be referred to as a New 
Year's Eve massacre occurring at Camp Ashraf?
    Because we know what is coming. In this particular case, 
the past is prologue. We have seen previously psychological 
torture around the camp, utilizing noise-making mechanisms to 
try and provide an ambiance that can only be described as 
torture there for the residents. Physical deprivation. We saw 
the videotape at the beginning of this hearing.
    We know what is coming. What is the United States doing to 
avoid that massacre that we know is coming?
    The December 31 deadline I believe is simply a pretense to 
carry out the forced repatriation of these residents, forced 
repatriation to brutality, to torture, and to an environment of 
death. So we must do all in our power to avoid this New Year's 
Eve massacre. And I want to know and I hope this hearing will 
shed light and provide answers to this important question.
    And I will yield back, Mr. Chairman.
    Mr. Rohrabacher. Thank you very much, and I apologize for 
mishearing my colleague. Let me just note, I have what you call 
a surfer's ear. It is in this ear from jumping into the cold 
water too many times.
    But, Mr. Filner, would you like to proceed with an opening 
statement?
    Mr. Filner. I am glad to hear that you can only hear from 
the left.
    Thank you, Mr. Chairman. Thank you for the honor of being a 
part of the committee today.
    What is happening, by the way, is rare in committee 
meetings that are going on around the Hill today; and I hope, 
Ambassador and Ms. Leaf, you will report this back to Mrs. 
Clinton. Usually, you see the two sides just fighting each 
other, rather than coming to any agreement or consensus. And I 
think we are all together on this side, and I appreciate the 
chairman's leadership on it.
    I would associate myself--God may strike me down for this--
but with all the remarks that Chairman Rohrabacher said. And 
rather than try to interrupt Ambassador Fried's testimony, 
because I was a little upset by it, I will just say some things 
now about it. I found your testimony a little bit troubling.
    You start off by saying, ``a common understanding of the 
facts is important.'' I agree with you. I am not sure your 
statement has led to that or helped us toward that common 
understanding.
    In your paragraph to try to destroy the credibility of the 
MEK, you said, ``by 1980, Iraq dictator Saddam Hussein had 
established a relationship with the MEK, cooperating with it to 
advance his efforts to undermine the Iranian Government.'' How 
evil. The dictator Hussein established--just substitute ``the 
United States Government'' for ``the MEK.''
    I mean, come on. Who was there supporting Hussein in all 
his efforts during this period of time? It was the United 
States. But now it is because he worked with the MEK they are 
the bad guys?
    There has been credible reporting--and there has also been 
credible reporting on the reverse--that the MEK militarily 
supported Hussein's violent suppression of groups in Iraq which 
opposed his regime. Well, so did the United States.
    You are looking at me rather strangely, as if we did not 
participate in the Hussein regime. He was our ally against 
Iran. I am not saying it is right or wrong. But you are 
saying--you are taking Hussein's bad image, giving it over to 
MEK. Where were we in all of this? Where was the United States?
    If you want to say that the MEK should be on a terrorist 
list, put the U.S. Government there, too. And in fact I have 
heard the first Secretary of Homeland Security, Secretary 
Ridge, say publicly that nothing ever crossed his desk, the 
Secretary of Homeland Security, which showed the MEK to be 
anything of a terrorist organization. The Attorney General 
Mukasey said the exact same thing, he never saw anything about 
that. The chief of staff of the President of the United States, 
Andrew Card, said the exact same thing. They never saw anything 
that, in their judgment, would lead to thinking of the MEK as a 
terrorist organization.
    So all of the facts on one side is just at least arguable, 
if not false. So I find it strange that you are going to try 
to--and I can say this because I have a Ph.D. In history, so I 
am allowed to say it is historically inaccurate.
    So, please, let us try to be factual here. Let us try to 
look at, as my colleague said earlier, this is a group of 
people who support our policy against Iran, that they want, as 
we want, a democratic, secular, nonnuclear Iran. We should find 
every way possible to work with them, not find every way, which 
you said in your statement, every way to have problems with 
them.
    I want to know from you, Mr. Ambassador, what are we going 
to do to help them survive, not all the problems that are there 
that make it difficult. We know the problems. Let's find a 
place for the refugees. Let's protect them if necessary.
    You left 5 or 10 troops in there. That is not very many. 
Leave 5 or 10, I bet you that changes the whole situation.
    Put a resolution in the Security Council saying the U.N. 
troops should be there to protect Ashraf. That is not easy to 
do. But let's show where the United States stands on this 
stuff. Take some leadership. Show some aggressiveness. Don't 
just give us bureaucratic stuff that says, oh, the place is so 
difficult. It is so complex. We have got all these problems. I 
am not sure we can do anything by December 31.
    That is baloney. We can. Show some leadership. Don't be so 
timid. Show that we care about--that this is the most critical 
place in the world, and we want a change in Iran, and we should 
be doing everything we can to help make that true.
    Thank you.
    Mr. Rohrabacher. Congresswoman Chu.
    Ms. Chu. Thank you so much.
    Well, I was elected in 2009, and my time here feels like it 
has been marked by events at Camp Ashraf. It was then that 
residents in the camp suffered their first bloody attack at the 
hands of Iraqi forces where 11 were killed and over 300 
injured. Hundreds of armed security forces used bulldozers to 
force their way into the camp. They used tear gas, water 
cannons, and batons against unarmed residents who tried to stop 
them from entering.
    I was even more horrified to see the full videotape of the 
events of April, 2011. Iraqi forces were shooting at unarmed 
women, men, and children. Thirty-four people were killed, and 
over 320 residents were injured. I could not believe the way in 
which it showed soldiers shot indiscriminately at people as if 
though they were just objects that they were looking at through 
target practice.
    I am here today to be a voice for the families who worry 
about their loved ones. The U.S. will leave Iraq at the end of 
the year on the same timeline that President Maliki is planning 
to close Camp Ashraf. Once U.S. forces leave, there will be no 
way to protect these residents. After these two attacks, and 
with Iraqi forces continuing to surround these camps, I cannot 
have it on my conscience or the conscience of the United States 
for these 3,400 residents to be harmed when we could have 
stopped it.
    I believe that the State Department and the President 
should use its position and influence to extend the December 31 
deadline for the closure of Camp Ashraf, that we should push 
the Iraqi Government not to relocate Camp Ashraf residents to 
places all over inside Iraq, and we need to urge the Iraqi 
Government to allow the U.N. High Commissioner for Refugees to 
do its work in helping the residents of Camp Ashraf find a safe 
place to go when the camp is closed. That is the least that 
they deserve.
    Mr. Rohrabacher. Thank you very much, and let me just make 
one correction for my colleague. That was not 
``indiscriminate'' shooting. That was worse. That was very 
discriminate. That was very pointed and very aimed shooting at 
the specific individuals who were murdered that day, including 
women and minors who were unarmed. They were targeted. They 
went through the sites. It wasn't just somebody shooting into 
the air and accidentally hitting somebody. This is premeditated 
murder, and that is one of the reasons that we are here today.
    Now that we have all had our say, it is time to hear some 
explanations and hopefully have some questions and answers and 
some dialogue to shed some light on what you can see is 
legitimate outrage on the part of the Members of Congress who 
understand what is going on here.
    So first let me note we have two fine witnesses from the 
State Department, two professionals who have dedicated their 
lives to serving their country and to serving the interests of 
the United States of America overseas and developing an 
expertise on how to deal with foreign governments and with such 
situations.
    Daniel Fried is a career Foreign Service Officer. He 
started in 1997. And over his career our paths have crossed 
many times in many different locations, and he is a pro. And 
that is why he is here today, because the State Department felt 
they needed someone to be here and to discuss this issue who 
had the depth of knowledge and the ability to look at this and 
to enlighten the Congress. Because he has got in-depth 
knowledge of this incident, this situation as well as America's 
dealings in that part of the world, in the Balkans and 
everywhere else.
    Barbara Leaf is currently the Deputy Assistant Secretary of 
State for Iraq in the Bureau of Near Eastern Affairs; and she 
has actually taken this post as of August, 2011. However, prior 
to that, she has been very deeply involved in her career in 
that part of the world, including Iran and Iraq and the 
Balkans.
    So, again, we have two State Department pros, 
professionals, and we are anxious to hear your testimony and to 
conduct a dialogue with you afterwards.
    So who would like to go first?
    Mr. Fried.

  STATEMENT OF THE HONORABLE DANIEL FRIED, SPECIAL ADVISOR ON 
 ASHRAF, U.S. DEPARTMENT OF STATE, ACCOMPANIED BY MRS. BARBARA 
   LEAF, DEPUTY ASSISTANT SECRETARY FOR IRAQ, BUREAU OF NEAR 
           EASTERN AFFAIRS, U.S. DEPARTMENT OF STATE

    Ambassador Fried. Chairmen Rohrabacher and Chabot, Ranking 
Member Carnahan, thank you for the opportunity to testify and 
to report to you on the substantial ongoing efforts of the 
United States to address this serious humanitarian issue.
    The Government of Iraq has announced that Camp Ashraf must 
be closed by the end of this year, and arrangements for the 
security and humane treatment of the residents have not been 
finalized. With time short, all parties must cooperate and 
accept the credible proposals being put forward by the United 
Nations for a humane, secure, and mutually agreed relocation of 
the residents.
    Vice President Biden stressed during his recent trip to 
Baghdad the importance the United States places on a peaceful 
and secure resolution of the situation at Camp Ashraf. The 
Secretary has tasked me to ensure that the U.S. Government is 
taking every responsible action possible, working with the 
Government of Iraq, the United Nations, and our allies and 
partners and in contact with the residents of Camp Ashraf and 
those who speak for them to achieve a safe and secure 
relocation of the residents of Camp Ashraf. We are working 
urgently.
    Still, it is important to be clear about the history of 
Camp Ashraf. Camp Ashraf is operated by, and its residents led 
by, members of the Mojahedin-e-Khalq , the MEK. The MEK sought 
the violent overthrow of the Shah of Iran and during the 1970s 
used terrorist tactics, including the assassination of six 
Americans, among them three U.S. military officers. And the MEK 
supported the occupation of, and hostage taking at, the U.S. 
Embassy in Tehran.
    Shortly after the Iranian Revolution, the MEK shifted its 
tactics toward the new Iranian regime. By 1980, Iraqi dictator 
Saddam Hussein had established a relationship with the MEK; 
and, in 1986, Hussein invited the MEK to Iraq. Approximately 
7,000 MEK members resettled in camps in Iraq, including Camp 
Ashraf. Saddam Hussein's government provided funding, training, 
and military equipment to the MEK; and, in exchange, the MEK 
served as a private paramilitary group for the Saddam Hussein 
regime.
    There has indeed been credible reporting that the MEK 
militarily supported Hussein's violent suppression of groups in 
Iraq which opposed his regime, including shortly after the 
first Gulf war. This explains how the U.S. military came across 
this armed group in Iraq during Operation Iraqi Freedom, some 
of the reasons why the MEK was added to the Foreign Terrorist 
Organization List in 1997 and the animosity felt toward the MEK 
by many Iraqis.
    In 2003, U.S. military forces negotiated a ceasefire and 
disarmament with the MEK leadership in Iraq. MEK camps and 
bases were consolidated to Camp Ashraf. U.S. commanders stated 
that they considered Camp Ashraf residents as protected persons 
under the Fourth Geneva Convention. This does not mean that the 
residents were considered refugees, but the United States 
afforded the residents of Camp Ashraf their rights under the 
Geneva Convention as protected persons and ensured to the 
extent possible that they were protected from hostilities. The 
U.S. military did this at great risk.
    Once a sovereign Iraqi Government was established in June, 
2004, Camp Ashraf's residents were no longer protected persons 
as a legal matter. Nevertheless, for the duration of the 
authorities under U.N. Security Council Resolution 1546 and 
subsequent resolutions, U.S. forces continued to treat the 
residents of Ashraf as protected persons as a matter of policy, 
the right call, given the unsettled and violent conditions in 
Iraq and the hostility of many Iraqis toward the MEK. And we 
conveyed this to the camp's residents.
    When our U.N. mandate expired on January 1, 2009, U.S. 
military remained in Iraq at the invitation of the Iraqi 
Government. It had no authority to provide protection for the 
residents of Camp Ashraf and accordingly transferred security 
responsibility for the camp to the Iraqi Government.
    The leadership at Camp Ashraf was informed that the U.S. 
military would no longer play a role in the camp's physical 
protection. Concurrently, at the U.S. Government's request, the 
Iraqi Government provided assurances of humane treatment. In 
addition, the Iraqi Government allowed U.N. and U.S. officials 
to monitor the well-being of the camp's residents.
    As everyone here knows, the Iraqi Government has probably 
expressed its decision to close Camp Ashraf by the end of this 
year. Yet the exercise of a sovereign right does not obviate 
the need for care and restraint.
    We have seen and condemned the terrible loss of life as a 
result of past attempts, including last April, by Iraqi police 
and security forces to enter the camp. The United States has 
stated publicly--and I want to reiterate now--that we expect 
the Iraqi Government to refrain from the use of violence.
    In addition, the United States has been consistent in 
urging the Iraqi Government to resolve the humanitarian and 
security issues at Camp Ashraf expeditiously and before the 
closure of the camp. This in particular was part of the Vice 
President's message to the Iraqi leadership in Baghdad during 
his latest visit. At the same time, the camp leadership must 
respect and recognize Iraqi sovereignty as we seek to resolve 
this matter.
    In addition, as we have conveyed and continue to convey to 
the leaders of Camp Ashraf and to those who communicate with 
the MEK's Paris-based leadership, the MEK must act responsibly 
and not put any Ashraf residents or ask any Ashraf residents to 
place themselves in harm's way.
    A humane and secure relocation is possible, but it will 
take intense and serious efforts by all parties. The Iraqi 
Government has been working with the U.N. on a resolution of 
the situation at Camp Ashraf. Some encouraging progress has 
been made. We welcome this. We hope that the MEK and Camp 
Ashraf leaders will engage constructively as well and work with 
the U.N. on its approach. A solution is possible if all work 
seriously to reach agreement on proposals that allow for the 
safe and mutual determination of each resident's individual 
legal status and his or her desire to leave Iraq while 
respecting individual rights and all in a context of security 
and humane treatment.
    The State Department has, is, and will continue to work 
closely with the U.N., its assistance mission in Iraq led by 
Ambassador Martin Kobler and the UNHCR to help achieve a 
humanitarian resolution. These U.N. organizations are playing a 
serious and constructive role in the urgent efforts to craft a 
solution. The European Union is supporting these efforts as 
well.
    Our goal is to help find an expeditious and humane 
resolution to the closure of Camp Ashraf. We will continue to 
engage intensively at the highest levels to head off any 
actions that could result in violence and will continue to 
encourage the residents to accept the reasonable, humane, and 
secure proposals crafted by the U.N. to relocate them from 
Ashraf.
    Thank you for the opportunity to speak to you today about 
this urgent issue, and I welcome your questions. And, Mr. 
Chairman, I would also welcome the dialogue that you suggested.
    [The prepared statement of Mr. Fried follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Rohrabacher. I understand that Deputy Secretary Leaf is 
here to help with questions but doesn't necessarily have an 
opening statement; is that correct?
    Ms. Leaf. That is correct, sir.
    Mr. Rohrabacher. Thank you very much. Then I will proceed 
with some questions, and then we will go on to the others.
    First of all, Mr. Ambassador, you just stated several times 
in your opening statement that each party has to do its part 
and that it will take an intense effort by all parties to get 
out of this situation. Let me ask you this: Do you believe that 
the United States is doing all we can? Are we involved in an 
intense effort when we can't even get ourselves to take the MEK 
off the terrorist list?
    Ambassador Fried. Should I answer?
    Mr. Rohrabacher. Yes. Tell me. On the face of it, that 
seems very contradictory. We can't even get ourselves to make a 
redesignation, and you are suggesting that all of us have to 
have an intense effort? How intense is it to have to make a 
policy for our own Government in order to diffuse the 
situation?
    Ambassador Fried. Certainly the efforts of my office and my 
colleagues at the Near East Bureau are intense. Secretary 
Clinton was explicit that she wants me to work flat-out on this 
issue, and that is what I and my colleagues, Ambassador Jeffrey 
in Baghdad are doing. That is a directive from the Secretary. 
We are all engaged. I can assure you that is happening.
    It is not my place to comment about the process of the 
foreign terrorist organization designation. My office is not 
playing a lead role in that process. I know it is moving along, 
and I am very mindful of the arguments you made----
    Mr. Rohrabacher. How long has it been moving on? How long 
has it been moving on?
    Ambassador Fried. This process has been some months. But, 
again, it is not my office engaged in it.
    Mr. Rohrabacher. Well, let me just note----
    Ambassador Fried. Yes, sir.
    Mr. Rohrabacher [continuing]. That intense effort does not 
in any way accurately describe the State Department's 
activities in dealing with just a simple chore that they 
themselves have responsibility for of redesignating the MEK and 
taking them off the terrorist list, as our European allies have 
already done.
    So I am sorry, but you are not representing your department 
in the State Department. You are here representing the State 
Department, and the State Department isn't operating intensely 
on this issue. Because on the face of it, they haven't--maybe 
it is an intense pace for a snail. Snails may think that they 
are really intensely trying to get across someplace, but they 
are going to get splashed because they are a very slow 
creature.
    Let me ask you this: Do you know of any cases in history 
where revolutionary organizations have fought against 
tyrannical regimes and later became very respectable democratic 
forces in society?
    Ambassador Fried. In history? Certainly.
    Mr. Rohrabacher. Maybe you could mention a few.
    I mean, I remember Jomo Kenyatta was a terrorist. Oh, boy, 
they frightened the whole world with terrorism about him. And 
didn't he and his organization become a very positive 
democratic force in Kenya after the British colonialists left?
    Mr. Filner. Thomas Jefferson.
    Ambassador Fried. There is ample evidence in history of 
exactly the kind of transformation you are referring to. 
Certainly. No question about that.
    Mr. Rohrabacher. Right. So we know it has happened in 
history, and we know that our European allies have already 
redesignated the MEK as a nonterrorist organization. So what is 
it with the State Department? They don't know history? Or they 
just aren't as intense as our friends in Europe?
    Ambassador Fried. I know that the process is continuing. 
The Secretary's decision will be made on the basis of the facts 
and the law. I know that we are working hard for the 
interagency process to get this done. And more than that, 
because it is in process, I can't say. With your permission, I 
will carry back your views and what the views of this committee 
are.
    Mr. Rohrabacher. I would like you to carry back another 
message; and that is if, indeed, you are correct and what I am 
seeing is not an accurate picture--what I am seeing is 
roadblocks and not an intense commitment. But my observation--I 
hope I am wrong. Please carry back the word that I will 
apologize to you and to the State Department for thinking the 
worst of you, for just believing that the reason why the 
Secretary of State has not come through with the documents that 
she has promised to come through with about Camp Ashraf, that 
you know I have just been actually not giving her the benefit 
of the doubt and thinking that maybe there is something wrong 
here that she is trying to cover up.
    But if you are able to succeed in a peaceful evacuation of 
Camp Ashraf, saving the lives of these people, I will then go 
back to always giving our friends at the State Department the 
benefit of the doubt. You can carry that message. I don't know 
what kind of incentive that is.
    But let me just note, I recognize the work that you do. 
Both of you have worked all your lives and have worked really 
hard for our country. But I happen to believe the State 
Department is an organism that quite often does not know one 
end of the organism from the other, frankly; and, in this case, 
it seems to be a closed loop where we ask for information and 
we don't get it.
    I mean, we asked--Secretary Clinton sat right where you are 
sitting and told us we would have the documents about Camp 
Ashraf. Now can you tell me, whereas you are representing the 
State Department, why we don't have those documents yet? Or was 
it a little difficult to get over to the file and take them out 
and send them over to Congress because you were too busy being 
intensified in something else?
    Ambassador Fried. If I understand the request that you have 
made, the letter which you have just received answers some of 
your questions, as you said. I believe that that letter 
contains an offer of a classified briefing to give you more 
information in addition to the classified briefing you received 
at our Embassy. So I believe that offer is on the record, and I 
repeat it now.
    Mr. Rohrabacher. Okay. Let me for the record note that over 
the years--in the 1990s, I was on this committee. I have been 
on this committee for 20 years. And I remember asking then-
Secretary of State Albright for the documents that would 
pertain to American policy toward the Taliban. And at that 
time, which we have learned since, the United States Government 
had cut a deal with Pakistan and Saudi Arabia that we were 
basically supporting the Taliban. And none of those documents 
were ever made available to this committee, even though the 
Secretary of State made a commitment to make those documents 
available. Is it the policy of the State Department to make 
commitments for providing documents to the Foreign Affairs 
Committee of the United States House of Representatives but to 
do so with an intent of not fulfilling that pledge?
    I thought you would say that, thank you.
    Okay. What I am going to do is let me colleague, Mr. 
Carnahan, proceed with his questions. We have about 15 minutes 
to go and then we will break for votes on the floor and come 
back for the second panel. Mr. Carnahan.
    Mr. Carnahan. Thank you, Mr. Chairman. And thank you all 
for being here, I guess I want to get back to this 
redesignation issue, Ambassador, and describe for the committee 
that process, where exactly the process stands, let's start 
with that.
    Ambassador Fried. I appreciate and accept the chairman's 
comment that I am representing the whole Department, so I take 
that on board. With that said, I am not an expert in the 
process but I will do my best to answer your question 
straightforward as I can. The process involves interagency 
input that is nearly complete, then exhaustive and 
comprehensive package goes up to the Secretary for her 
consideration, I believe. I believe this will happen soon. I 
can't promise you a timeline and I don't believe in making 
promises I can't keep, but I can tell you that the--issue of 
redesignation is one that is much on the Secretary's mind, and 
she knows this is coming.
    Mr. Carnahan. And is it anticipated that will be done 
before or after the December 31st deadline?
    Ambassador Fried. I can't say. I can't say and I can't give 
a promise----
    Mr. Carnahan. I am not asking for that, I am just asking 
for your best knowledge and information.
    Ambassador Fried. Um----
    Mr. Carnahan. You can't say, I understand.
    Ambassador Fried. There are--because this is not--this is 
based on the facts and the law and I can't--to make a promise 
that I couldn't keep is something I am loath to do or commit.
    Mr. Carnahan. I am not asking you that. So let's move on, 
the other timeframe I want to ask you about, and maybe you can 
elaborate more on is this December 31st deadline with regard to 
the efforts that you describe are underway, and again, I would 
appreciate those efforts. I think they are urgent and I 
certainly want to be sure. I think everybody here wants to be 
assured that there is not another humanitarian crisis or 
massacre because of inaction or delay. So my question is with 
regard to that timeframe, do you foresee us being able to 
process those 3,000-plus people who have applied to get that 
process completed before that deadline?
    Ambassador Fried. As a practical matter, unfortunately no, 
that is not. Now, yesterday--but if you want, I can elaborate 
on the issue of the timeline and the problem it poses.
    Mr. Carnahan. Please do, in an additional follow-up. So 
within that process, is part of the effort that you are 
undertaking now, discussions to extend that deadline to allow 
proper time for this to happen? And if you would talk about 
that as well.
    Ambassador Fried. Certainly. Yesterday, the U.N. Security 
Council had a session on Iraq, and a large portion of it was 
devoted to exactly this issue. Afterwards, the head of the U.N. 
mission in Iraq, Martin Cobler, who is leading these efforts 
with the Government of Iraq had flown in from Iraq for this 
session. Told the press that he believes the Government of Iraq 
should extend the deadline. He also said that the leaders at 
Camp Ashraf and the leaders of MEK in Paris should fully 
participate--I am not quoting, but I am paraphrasing--fully 
participate in his efforts, and he also reminded the world that 
the responsibility for a peaceful resolution lies with the 
country whose sovereign in Iraq, that is, the Iraqi Government.
    We are working--the State Department is working very 
closely with Ambassador Cobler. It is true as I said simply 
practical and factual matter that all of the refugee processing 
cannot be completed by December 31st.
    Mr. Carnahan. Can you give an estimate of what would be an 
amount of time when that processing could be done?
    Ambassador Fried. I will do that, but I should say first 
that we will be in a far, far stronger position urging the 
Iraqi Government to take Cobler's advice and extend the 
deadline, if, in fact, there is an active, if the MEK comes to 
the table, figuratively, I mean, and helps work out 
arrangements for secure relocation. Time is needed, but the 
question is time for what? And it has got to be--the answer to 
that ought to be time for arrangements to be made so that the 
people at Camp Ashraf can be moved in conditions that are safe 
rather than chaotic. And that cannot happen unless they agree 
to it, because if it is forcible, it ends very badly. I am 
sorry about the long answer but I wanted you to know.
    Mr. Carnahan. I see my time is about up. If we are 
negotiating what that time needs to be to do that, what should 
that request be in terms of do we need 2 months? Six months? If 
they are talking about an extension, what kind of extension are 
we really needing to request?
    Ambassador Fried. My colleague may have something to say, 
but it would be--I suspect it would be a matter of months, but 
our ability to get that extension is far stronger if there is 
an active process underway.
    Ms. Leaf. Sir, if I could add, since I have been working 
this account a bit longer than Ambassador Fried, to underline 
what he said earlier about the intensity of efforts and sort of 
across the board, we have several people at our Embassy in 
Baghdad who make regular visits out to the camp. And in 
addition to the Ambassador's interventions and discussions over 
the course of the last couple months, there has been great 
intensity of discussions with the U.N. agencies about how they 
might approach this so that we might best buttress their 
efforts.
    I wouldn't be willing of course to speak in lieu of them in 
terms of what time frame they need, but we have been very 
encouraged in this most recent period with the discussions that 
Ambassador Cobler has had with the Government of Iraq and very 
operational, practical discussions. So we are, of course, 
letting him lead in terms of the mechanics of it, and we are 
coming full bore in behind in a political sense, both here in 
Washington in discussions at high level with Iraqi officials as 
well as out there on the ground.
    As Ambassador Fried said, what will be useful now to take 
it to another stage is for the leadership of the camp to engage 
in that vein. We took a variety of attacks on this issue over 
the course of the spring and summer on the U.S. basis as 
opposed to following U.N. lead. And we were stymied in a sense 
in being able to move forward because the residents of the 
campus existed on sort of a block approach to resettlement. And 
we are simply not aware of any country that is willing to take 
on that responsibility. And indeed, UNHCR's approach is on this 
matter, I am paraphrasing here, is that they will not accord 
group status.
    Finally there was a breakthrough on this some weeks back, 
and residents began forwarding individual applications, but 
time is of the essence here for the residents of the camp and 
leadership of the camp to engage forthrightly with Ambassador 
Cobler so we can make good headway on this. Thank you.
    Mr. Carnahan. Thank you.
    Mr. Rohrabacher. Thank you very much. And Judge Poe will be 
our next questioner. But just one more question from the chair, 
how much aid are we providing Iraq this year and next year? 
Military and development aid?
    Ms. Leaf. I don't have the figures right at hand, I will 
get those to you. The aid request in terms of economic support 
funds that we requested this year were, I think, in the range 
of $325 million. The FMS amounts are considerably higher. Iraq 
has put its own money toward that as well, but I would be happy 
to get you those.
    Mr. Rohrabacher. And the military?
    Ms. Leaf. On the FMS, it is in the range, I want to say $4 
billion, but I will get you the exact figure, sir.
    Mr. Rohrabacher. Over $1 billion?
    Ms. Leaf. Yes, well over, sir.
    Mr. Rohrabacher. Well over $1 billion. Just know that there 
with a program just here in our committee about training the 
Iraqi police, which was going to be a $900 million program over 
a certain number of years. And I would suggest that if we are 
so intense in our efforts to get to see a solution to this, 
that maybe we should suggest that they are not going to get 
some of our money. Maybe they doubt our sincerity when we don't 
make a threat like this. And I would now yield to Judge Poe.
    Mr. Poe. Thank you, Mr. Chairman. As far as I know I have 
seen all the classified briefings that the State Department has 
shown us on the issue of the designation of the MEK. I have 
read everything that has come to our attention about the 
designation.
    I am not convinced that the MEK ought to stay in the 
Foreign Terrorist Organization by the United States. 
Ambassador, you alluded to another classified briefing. Is 
there more information that this committee hasn't seen 
regarding why the MEK is still on the designation? Is there 
recent information or is there just--what are you talking about 
that you will furnish another classified briefing on the issue?
    Ambassador Fried. My reference to a classified briefing was 
to the chairman's question about the events of last April and 
the questions he raised in his letter to Secretary Clinton. It 
was not--my offer was not with respect to the FTO issue.
    Mr. Poe. Okay. I wanted to be clear on that because there 
is no more information. As far as you know, the State 
Department has furnished all that information to us either here 
or in classified briefings; is that correct?
    Ms. Leaf. Sir, I'd be happy to take that question back, but 
they are looking at it actively now.
    Mr. Poe. So there is more information?
    Ms. Leaf. I'd be happy to take that back.
    Mr. Poe. What does that mean?
    Ms. Leaf. I'd be happy to take your question back and 
respond to you in writing.
    Mr. Poe. So you won't tell me here in this hearing whether 
there is or is not more information that the committee hasn't 
received about the designation.
    Ms. Leaf. What I can tell you is that they have been 
working on the package for some months as you are aware. I 
can't speak to every detail and what you have been briefed on 
previously, but I will be happy to take that back.
    Mr. Poe. Well, as far as I know of the information you have 
allowed us to see, you haven't convinced that the FTO 
designation should remain. That is the key to why we are having 
this problem. You--we want these residents to be safe, they 
want to be able to get refugee status, and they want go to 
foreign countries, and foreign countries won't take them 
because the United States still labels them as FTOs, Foreign 
Terrorist Organizations.
    Now my question to you, Mr. Ambassador, as Malaki told us, 
the reason he acts the way he does toward Camp Ashraf is 
because we as the United States Government keep them on the FTO 
list. That is why he wouldn't let this committee go to Camp 
Ashraf, that why he wants to have them relocated because of our 
designation, that is what he says, that is what he tells us. So 
I would hope the State Department would reach a decision as our 
European friends have that they should be removed from the FTO 
list and the delay, the delay, the delay costs lives.
    My question now is April 11th--April of 2011, 36 folks in 
the Camp Ashraf were killed. Are we investigating that? Are we 
holding anybody accountable for that? Is the United States?
    Ambassador Fried. We condemned a loss of life and the 
killings at Camp Ashraf. We have raised this repeatedly with 
the Iraqis, and it is out of concern for further violence that 
Secretary Clinton has asked me to take on this assignment.
    With respect to----
    Mr. Poe. Are we holding anybody accountable? That is my 
question. Has anybody held--has the Malaki government, the 
soldiers that came in using American equipment, has anybody to 
this date been held accountable or are we just talking about 
it?
    Ambassador Fried. We have made very clear our deep 
unhappiness at those killings.
    Mr. Poe. I am sure--excuse me, I am sure that the people 
whose family members are present and if they were killed in 
Camp Ashraf are glad that we are deeply concerned. My question 
is, has anybody in the Iraqi Government or anybody anywhere 
been held accountable for the deaths of those people by our 
Government? That is all my question is.
    Ambassador Fried. Our Government? I am not aware of it.
    Mr. Poe. We haven't.
    The concern is the deadline, December 31st as people on 
this committee have alluded to and has stated, that is the day 
of reckoning, people at Camp Ashraf are afraid for their lives. 
Does the United States, our Government, the State Department, 
support relocation of the residents to another camp in Iraq?
    Ambassador Fried. Yes, we do.
    Mr. Poe. How do we know it is going to be safe for the 
people of Camp Ashraf to be moved to another place?
    Ambassador Fried. That is exactly the subject of the 
detailed negotiations underway. Trust but verify is a good 
principle to have.
    Mr. Poe. Do you think they will, in the next 24 days, we 
will be able to assure some kind of agreement with the Malaki 
government that whatever happens to these folks, they will be 
safe?
    Ambassador Fried. I very much hope so, and it is our 
intention to work with Ambassador Cobler, who has got the lead. 
To support the conclusion of such an agreement, that cannot 
happen if the U.N. is working only with the Government of Iraq. 
The leaders at Ashraf and people at Camp Ashraf have to be part 
of this process, and we encourage them to step forward and work 
so that there can be a mutually-agreed arrangement rather than 
something that is unilateral. Unilateral doesn't work, it can 
end very badly, so we are pushing hard for exactly this, and it 
is our view that if either an agreement can be reached or 
enough progress can be made, that we could get the time we need 
to get that kind of agreement. We, in this case, is the U.N., 
they have the lead, but we are working actively.
    Mr. Poe. I see my time has expired. I will ask unanimous 
consent to submit other questions to the Ambassador and Ms. 
Leaf.
    Mr. Rohrabacher. And I would, at this point, suggest if 
there are other questions that members have will be submitted 
in writing, we would hope that you would answer them forthwith. 
We still have a few minutes left. It is the intention of the 
chair to have Mr. Rivera and the other members of the committee 
have their questions as much time as we have got. Non members 
of the committee who are sitting in are welcome to join us. As 
soon as the full members of the committee are done with their 
questions, will be given a chance if we have time. We will 
break, however, just before the next vote, meaning the votes 
will happen, we have 15 minutes to get down there, we will take 
10 minutes to finish up this business, give our colleagues 
hopefully a chance to ask questions. And then our two witnesses 
from the State Department will be dismissed and we will have a 
second panel starting right after the last of the votes in this 
series.
    I want to take this opportunity to thank both of you. I am 
very aggressive in my questioning, and I do not mean that to be 
in disrespect, because I do want to you know that down deep, I 
know you folks work really hard and I am very grateful and 
appreciative to the work you have done in your life to make 
things work overseas. This is an important issue and so we get 
a little passionate about it too. Mr. Rivera you may proceed.
    Mr. Rivera. Thank you, Mr. Chairman, and I apologize for 
having, we had our weekly meeting with the Speaker that we had 
to attend for just a few moments. If I am repeating a question 
that was asked previously, again, I apologize. But before I 
left I had said the main answer I want to get from this hearing 
is what is the Obama administration doing? What is this 
government doing to prevent the massacre on December 31st?
    Ambassador Fried. There was some discussion of this in the 
back and forth, but I will repeat it. It is the critical 
question, of course. We are focused now on the process of 
negotiations being led by the United Nations with the 
Government of Iraq for a mutually-agreed departure of the 
residents from Camp Ashraf and their safe, secure humane 
relocation inside Iraq in a way that will allow the UNHCR 
process them.
    Mr. Rivera. Have we made it clear to the Iraqi Government 
or to the officials at the United Nations that such a 
repatriation upon the December 31st deadline is unacceptable? 
    Ambassador Fried. Repatriate?
    Mr. Rivera. Have we made it clear that the December 31st 
deadline of what the Iraqi Government has announced that that 
is unacceptable to this government?
    Ambassador Fried. It is the U.N.--I was saying earlier, but 
I will repeat it. Ambassador Cobler, heading the efforts for 
the U.N. yesterday after a Security Council session devoted to 
this issue, said that the deadline needs to be extended, but he 
also said that the leaders at Camp Ashraf and the MEK leaders 
in Paris need to participate in the process, they need to step 
up and help come to a mutually-agreed solution.
    Mr. Rivera. So the deadlines needs to be extended, that 
means the deadline must be extended. That is our position, the 
position of the Obama administration, that deadline must be 
extended; is that correct?
    Ambassador Fried. It is impossible to get everything done 
before the deadline. However, our ability to get an extension 
of the deadline, to convince the Iraqi Government to extend the 
deadline is going to depend on whether there is a serious 
process underway and that is why we call on the leaders at Camp 
Ashraf to get into this process so that we have the best chance 
of a peaceful outcome, which is what we all seek.
    Ms. Leaf. Congressman, if I could just add something, we 
had been engaged in some months earlier in efforts to work out 
arrangements facilitated by the U.S. Government, the U.S. 
military while it still existed in some numbers there, to do a 
safe and secure relocation of the residents with assistance 
from UNHCR so that UNHCR could begin processing. There were a 
number of impediments to doing so, one of the which was the 
insistence of the residence that UNHCR do all of its refugee 
interviewing at Camp Ashraf, and UNHCR took the stance it could 
not do so for a number of reasons, among which it viewed it as 
a coercive environment.
    So we were engaged in very intensive discussions throughout 
the course of months, however, when the new head of UNAMI 
Martin Cobler arrived in Iraq in early fall, he really took 
this issue over and in a very activist way and began 
discussions with all parties. And this is an effort, as 
Ambassador Fried said, that we fully support. We have made very 
clear that to the Iraqis in discussions here and out there in 
Baghdad that the U.N. is the best and necessary partner on this 
effort and that it is incumbent on the government to work----
    Mr. Rivera. With respect to our Government, there is no 
doubt from our Government that the fate of the residents of 
Ashraf is dire, unless we intervene and make it clear that 
their fate is our concern. Do we have any doubt about that?
    Ambassador Fried. No. There is no doubt that this situation 
is serious, we are worried about the possibility of violence, 
and working flat out to ward it off.
    Mr. Rivera. Thank you. I will yield back, Mr. Chairman.
    Mr. Rohrabacher. We may even be serious enough to cut off 
certain funds if we are still giving them billions of dollars 
to people who won't commit to us if they are not going to 
murder unarmed people in a refugee camp.
    Mr. Turner, do you have some questions?
    Mr. Turner. Thank you, Mr. Chairman. A question for 
Ambassador Fried, what, in your opinion, is the biggest 
obstacle to the State Department listing the--delisting MEK as 
a terrorist organization.
    Ambassador Fried. It is not a question of obstacles, it is 
a question of a review of the facts and the law in this case. 
And that decision will be made by the Secretary, the memo is in 
preparation, will be a long package of documents. It will be 
sent to her, she will have to make that decision, that is all I 
can say at this time, sir.
    Mr. Turner. When did the EU delist this organization, do 
you recall?
    Ambassador Fried. I would have to get----
    Mr. Turner. It has been quite awhile.
    Ambassador Fried. Over a year, I believe.
    Mr. Turner. Are there any different facts that----
    Ambassador Fried. We have our own data and we have own 
legal standards. We are, of course, aware of what the EU has 
done, and it is obviously timely to review that. The Clinton 
administration, the Bush administration decided this one way, 
and this administration is looking at the issue now.
    Mr. Turner. Thank you, I yield back.
    Mr. Rohrabacher. All right. And Mr. Filner.
    Mr. Filner. Thank you, Mr. Chairman. Just briefly if I may, 
I know we have to adjourn. The absurdity of the listing of the 
MEK as a terrorist organization is shown by your testimony. On 
the one hand, we are treating them as terrorists. Then you are 
saying they have to engage and sit at the table, and they have 
to take a role. You are treating them in a way that says oh, 
yeah, there are legitimate parties here. If they are legitimate 
parties, delist them. I don't know why you think you can have 
it both ways, you are calling someone a terrorist and saying 
please be engaged in this process, you terrorists, we don't 
trust you at the table, because you may take out a gun and 
shoot us, but please sit down. That is absurd. The whole thing 
of--you talk about urgency, all your stuff is on process, you 
can't promise time lines. I mean, you are presently now, if I 
understand, your official position is envoy about the closing 
of Guantanamo? Is that your title?
    Ambassador Fried. Special envoy for closure of Guantanamo, 
yes, sir.
    Mr. Filner. Oh, good. I hope we don't move as slow as we 
did on that one in this case. Look you 25 days, we haven't 
closed it, right?
    Ambassador Fried. We can get into the reasons.
    Mr. Filner. We haven't closed it, have we?
    Ambassador Fried. No.
    Mr. Filner. Okay. So 2 years from now, I hope you say well, 
we were trying to deal with Ashraf, but they were complexities 
there. You have 25 days. I don't hear from you the assurance 
that many of these people would like to hear, because they have 
relatives there, and they have close friends there, that 
somehow the United States is going to take action that does not 
depend on all these other complexities. If you just recommended 
today, half dozen troops stay there at Camp Ashraf or recommend 
today that the Security Council take this action or recommend 
today that the U.N. take some specific action, you are not 
doing that. You keep talking about the complexities and the 
timelines and you can't comment on this and there's this and 
that. Give us some assurance that what you just said, you think 
the situation is dire. I don't see any evidence that you think 
the situation is dire. It takes months for us to get a letter 
from the Secretary on these issues. We tried to visit Camp 
Ashraf, they won't let us. How do we know the situation is 
dire?
    Mr. Rohrabacher. Give the Ambassador a chance to answer the 
question.
    Mr. Filner. I yield back.
    Mr. Rohrabacher. And hopefully we will give Ms. Jackson Lee 
a chance to ask a question. Mr. Ambassador, would you like to 
answer that?
    Ambassador Fried. It is hard to know where to begin, but we 
do regard the situation as serious, and the word ``dire'' is 
appropriate.
    Mr. Filner. Then do something today which shows that. What 
can you tell us today that the United States is going to do to 
protect those people?
    Mr. Rohrabacher. If you want him to answer your question.
    Mr. Filner. He goes on with bureaucratic baloney.
    Mr. Rohrabacher. We got a couple of minutes. Mr. 
Ambassador, you have 15 seconds, we are going to give Jackson 
Lee a minute and then we have run off and vote.
    Ambassador Fried. The best way to resolve this peacefully 
is to work with the U.N. to get a negotiated solution quickly 
so that the people there can leave the camp in safety and 
security, that is what we are aiming at, and we are indeed 
working intensely every single day.
    Mr. Rohrabacher. Okay, Ms. Jackson Lee, did you have a 
question?
    Ms. Jackson Lee. Mr. Chairman, I have to take a second to 
thank you and Mr. Carnahan. This is a miracle to believe that 
we have a full hearing on Camp Ashraf is absolutely a miracle 
and a tribute to the Iranian Americans that are sitting in this 
room. But let me say on April 8th, the Iraqi arm and police 
under the command of Mr. Malaki attacked Camp Ashraf with 
ammunition and weapons, I believe, from the United States. At 
least 34 people were killed and 8 women were killed. At the end 
of this month, Mr. Malaki determines to close this. Ambassador 
Fried, and to Ms. Leaf I thank you for your service, I have 
this question for you immediately. Just what is the United 
States intending to do? I want you to cut off funds from 
Malaki, I want Malaki, as he comes, I appreciate the 
sovereignty and I appreciate the dignity of his office, but I 
believe he should not have an oval office meeting with the 
President until he agrees before he walks into that oval office 
that he will not murder, kill and maim the people of Camp 
Ashraf. He does not deserve a seat with our President if he is 
not going to agree before that meeting.
    What are you prepared to do to stop the bloodshed? Are our 
soldiers going to be there? Are you going to insist that if 
there is an extension? What are you intending to do, if I may 
have that answer?
    Mr. Rohrabacher. Ms. Jackson Lee asked a really important 
question. Will you take that message back and give us an 
answer, will this President meet with Prime Minister Maliki 
even if he hasn't made an agreement on this issue, come to an 
understanding?
    Ms. Jackson Lee. Can I just add, will you have soldiers 
there, are you going to absolutely stop them from closing it?
    Ambassador Fried. After many years and the expense of blood 
and treasure, our soldiers are leaving Iraq. We are working 
flat out to support arrangements for the safe and secure humane 
relocation of the residents of Camp Ashraf. We are doing so on 
an urgent basis, very mindful of the calendar and the ticking 
clock. That is where our efforts are focused.
    Mr. Rohrabacher. Could you go to address Ms. Jackson Lee's 
original question, is the President of the United States going 
to be meeting with Prime Minister Maliki, even if he has not 
reached an understanding on this issue and if you do not know 
the answer, will you take that to the State Department and let 
them know how concerned we are about it?
    Ambassador Fried. First, I will certainly take back the 
concern of this committee, absolutely, sir. And secondly, I 
will say that in my judgment, the best way to convey the 
gravity of the situation and the concerns of this committee is 
to have that meeting and go forward with it.
    Mr. Rohrabacher. With that said, this hearing will be 
adjourned in one moment when I just leave the thought, actions 
speak louder than words. You are talking to somebody, whose 
going to understand that that is weakness, rather than if you 
don't talk to him.
    Ms. Jackson Lee. It is a human rights issue, Mr. Chairman.
    Mr. Rohrabacher. Thank you, Ms. Jackson Lee, this part of 
the hearing is in recess until after the next vote. Thank you.
    [Recess.]
    Mr. Rohrabacher. We will assume that our friends on the 
other side of the aisle think it is okay for us to proceed and 
talk to Ranking Member Carnahan. Prior to the break he said he 
was inundated with some things, so I am sure he will be here. 
So this hearing will come to order again.
    For our second panel we have with us three fine witnesses, 
and I think the first panel certainly gave us a lot of things 
to think about, and I think we have a now shed light on a very 
serious issue. And just doing that hopefully will help us find 
a solution before another tragedy occurs.
    Our first witness is Ambassador Lincoln Bloomfield who has 
a long, long history of being active professionally and helping 
the United States in its diplomatic efforts. Assistant 
Secretary of State, Deputy Assistant Secretary of State, 
Assistant Secretary State Political Military Affairs you name 
it, it is that long. We are very happy to have you. And today 
he is chairman of the Henry Stimpson Center here in Washington, 
DC.
    We have Wes Martin who is a retired Army Colonel. In combat 
he served as a senior antiterrorism force protection officer 
for all coalition forces in Iraq during Operation Iraqi Freedom 
and has a long history in the area of National defense. We also 
have with us one of those prose from the academics from the 
think tanks here in Washington, Elizabeth Ferris from the 
Brookings Institution.
    We welcome all of you and what we would--perhaps, move 
forward if you could summarize your testimony in 5 minutes, 
that would be great then we will go on for some dialogue and 
hopefully some other members will be joining us, but also, if 
members are not joining us you should be aware that they are 
available. We hope you are available for questions that we 
could send you in writing that you could answer back in 
writing. So Ambassador Bloomfield, you may proceed.

    STATEMENT OF THE HONORABLE LINCOLN P. BLOOMFIELD, JR., 
               CHAIRMAN, HENRY L. STIMSON CENTER

    Ambassador Bloomfield. Thank you, Mr. Chairman, good 
afternoon. I have prepared a statement and would ask it be 
entered for the record.
    Mr. Rohrabacher. So ordered.
    Ambassador Bloomfield. I would be pleased to discuss it in 
response to your questions. By way of introduction, I will make 
three brief points. I will start with the last point I 
discussed in my prepared statement. You will be aware that many 
retired military leaders have publicly called for the U.S. 
Government to ensure that the residents of Camp Ashraf are 
unharmed as U.N. agencies try to process them for onward 
disposition. The motives of these senior leaders have been 
publicly questioned.
    Having worked as a civilian in the Pentagon, White House 
the State Department on defense and security issues for many 
years, I know most of these officers, and believe the criticism 
of them to be misguided. Their sole concern is the honor of the 
U.S. military, which extended a promise of protection to the 
residents of Camp Ashraf 8 years ago. That promise has twice 
been violated by Iraq's military forces, and a third attack 
could occur by the end of this month.
    U.S. laws governing arms transfers and security assistance, 
the Arms Expert Control Act and the Leahy Law enforcing human 
rights standards, would appear to have been violated and must 
be upheld. Above all, our military forces, who, along with 
their families, have paid such a high price for their service 
in Iraq must be permitted to exit Iraq with honor. That is the 
bottom line American interest at stake in the Camp Ashraf 
situation. And if some American journalists have been slow to 
grasp it, I have no doubt that Iran's leaders see a strategic 
opportunity here to harm our reputation and credibility as a 
superpower at a time when the future the Middle East is being 
contested.
    Second, you will find in my prepared remarks reference to 
an independent assessment I wrote in August which will, I hope, 
be part of the electronic record of this hearing. For much of 
this year, I have been critically examining the factual record 
that commonly attaches to the Mujahedin-e Khalq, the entity 
listed since 1997 as a Foreign Terrorist Organization with 
which the residents of are Camp Ashraf are affiliated.
    In the interest of time, I will leave it to the members to 
pursue any questions from my research, which relies on the most 
credible sources I could find and calls into question many of 
the most damaging allegations commonly made against the MEK. I 
offer the members my prepared testimony as an alternative 
narrative of recent history that has major implications for 
U.S. policy. And I respectfully recommend that the Congress 
formally seek a cleared intelligence community assessment of my 
findings to confirm or credibly rebut them item by item with 
hard facts, and to report back to Congress.
    Why is this important? And this is my final point. I am 
persuaded that three decades of history involving the MEK which 
Americans have viewed exclusively through the specialized prism 
of terrorism is, in fact, a deadly war between two groups over 
political rights in Iran. Americans have had little interest in 
this story mainly because we are told that these people were 
the ones responsible for killing American officers and 
contractors in Tehran in the 1970s. If I still thought these 
were the people who killed Americans, I probably would not have 
looked much further myself. But my research indicates that the 
Americans were killed by a different group than the MEK of 
Massoud and Maryam Rajavi.
    So I have pursued this story further, and what I see is a 
contest for Iran's future that Ayatollah Khomeini won in 1981 
by jailing and executing tens of thousands of people who 
opposed dictatorship. The European court cases dismissing 
terrorism charges against the MEK did not say that the MEK had 
repented and ceased its terrorist behavior. They said that the 
MEK's violent actions over two decades from 1981 to 2001, all 
aimed at the regime in Tehran, had never been terrorism.
    What do we miss when we look at the actions of only one 
party in a conflict? Obviously, the other side's actions. 
Whether or not the MEK and its political affiliate have any 
prospect of being a player in Iran's future, and you won't find 
a single Washington expert who thinks they do, it is 
indisputable that for three decades, the regime in Tehran has 
treated them as a first-order threat to its own legitimacy and 
survival in power. I am very concerned that the American people 
are not informed about Iran's worldwide intelligence 
activities, deceptive information operations, and leveraging of 
hostages, trade opportunities, and nuclear talks in an effort 
to make Western governments accomplices in its war against 
these exiled regime opponents.
    The residents of Camp Ashraf are in danger today, but so is 
American influence in the Middle East if we do not connect the 
dots, widen our aperture, and better understand Iran's actions 
and strategic political objectives on all fronts. I thank you, 
sir.
    Mr. Rohrabacher. Thank you very much, Mr. Ambassador.
    [The prepared statement of Mr. Bloomfield follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                              ----------                              

    Mr. Rohrabacher. Now we will see if someone from Academe 
can actually keep within the same time frame of 5 minutes that 
our diplomat did.

 STATEMENT OF ELIZABETH FERRIS, PH.D., CO-DIRECTOR, BROOKINGS-
              LSE PROJECT ON INTERNAL DISPLACEMENT

    Ms. Ferris. Thank you very much, Mr. Chairman.
    Mr. Rohrabacher. Thank you very much, you may proceed.
    Ms. Ferris. Let me make it clear at the outset, that I am 
speaking from my perspective of having 25 years of experience 
in very difficult humanitarian situations. And also as an 
independent academic researcher. I have never been to Camp 
Ashraf, I don't have expertise in judging whether or not it 
should be designated as a terrorist organization, but based on 
very difficult situations in other parts of the world and other 
times, I would like to suggest that finding solutions should be 
the main focus. And what we have learned from some of these 
other situations are, there is a role for international 
standards and international processes. You have to look and see 
what is in the interest of the different stakeholders and come 
up with a solution that responds to those interests.
    For example, we look back at Vietnam and the huge 
Vietnamese refugee situation and see it as having been a 
successful thing. But at the time, there were agonizing choices 
and compromises that were made. When we look at the 
international principles that are relevant, first of all, the 
fundamental right to life, security of the person, and basic 
human dignity. Iraq must be held accountable for the safety of 
people in Camp Ashraf, that is a sine qua non, it has to be the 
basis for all policy.
    Another basic international principle is that people must 
not be sent back to situations where their lives are in 
jeopardy that applies whether or not countries have signed on 
to the refugee convention which Iraq has not, but that has 
become customary international law. That has to be the bedrock, 
both of U.S. policy and of finding a solution.
    Now if you look at solutions for refugee situations and 
here we know the residents of Camp Ashraf have not yet been 
formally determined to be refugees, but there are three 
solutions: People can go back voluntarily, which is, in most 
cases, the best solution but doesn't seem particularly 
appropriate here, unless there are some cases of people who do 
want to return.
    A second is local integration, to be allowed to stay in 
their country of refuge with full benefits, rights, and most of 
all, in safety and security. Again, Iraq has made it very clear 
that this is not an option for the residents and a long term of 
Camp Ashraf.
    The third solution, resettlement in a third country, has 
historically been used for only a small percentage of the 
world's refugee, but it was designed to respond exactly to 
cases such as this one, where people can be supported to start 
new lives elsewhere in a way that respects their safety and 
also other basic human needs.
    I think that this resettlement in a third country is the 
best option probably for most of the residents of Camp Ashraf. 
So if you work backwards from that and say, ``What will it take 
to get there?'' First of all, this question of the impossible 
deadline we have heard of the closure of Camp Ashraf by 
December 31st of this year that deadline needs to be extended, 
I would suggest for at least for 6 months, to enable the United 
Nations High Commissioner for Refugees to put into place the 
procedures and standards to determine whether or not people 
individually meet the criteria of refugee status. There are 
some things that follow from that in terms of the way those 
determinations are made.
    Then the process needs to begin, although it has already 
begun, of looking for countries which will accept and receive 
the residents of Camp Ashraf who have been determined to be 
refugee. And here the role of the U.S. Government is critical, 
when you yourself said in the earlier panel, Mr. Chairman, some 
of the difficulties when the U.S. cannot resettle people 
because of terrorist designation.
    But, you know, the U.S. Government has come up with very 
creative ways of working around legislative prohibitions and 
standards and procedures in other cases, whether it is coming 
up with different places for processing or declaring exceptions 
or paroling people in, which is not a very good solution, but 
it is one that perhaps should be considered.
    At the same time, the U.N. and others should explore 
possibilities for resettling people in other countries, in 
Europe and Australia and some of the nontraditional 
resettlement countries such as Brazil, which might be willing 
to take some. But it is all linked. Those governments are 
saying, well, if the U.S. Government isn't going to accept 
people for resettlement, why should we? I understand that 
several European governments have made decisions to accept some 
residents for resettlement, but they need to say so publicly 
because if Iraq believes the international community is serious 
about resettling people elsewhere, I think that it will have 
more incentive to cooperate not to close the camp and to make 
it possible for people to be processed and resettled 
afterwards. Thank you.
    Mr. Rohrabacher. Perfect timing.
    [The prepared statement of Ms. Ferris follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Rohrabacher.Colonel Martin.

 STATEMENT OF COLONEL WES MARTIN, USA (RETIRED), (FORMER BASE 
                   COMMANDER OF CAMP ASHRAF)

    Colonel Martin. Sir, Mr. Chairman, I appreciate this 
opportunity to address the joint committees. We have a saying 
in combat, if you find yourself in a fair fight, you didn't 
come prepared. To my left is Lieutenant Colonel Julie Norman 
who was a joint interagency task force commander at Camp Ashraf 
as well, and worked closely with the Mujahedin.
    The attacks that we have seen numerous times on the video 
is included in a very extensive packet I have provided to the 
people, and I wish to point out, one is Sabbah, she was born in 
1981 in an Iranian prison. And the other one is Majad born in 
1961, mechanical engineer, both educated in Germany. Having 
served in Camp Ashraf and worked with many people like Sabbah 
and Majad, I can honestly say the residents of Camp Ashraf are 
not terrorists. They are real people with names, faces, lives, 
and they once had protected person status, and those that had 
protected person status was revoked and those lives have been 
extinguished. The State Department calls these people 
terrorists.
    Also in my packet, many contracts that we worked out with 
the residents of Camp Ashraf and the leadership to include 
bringing us water. These people also, whenever I left the 
perimeter, as Julie can tell, I did it continually, I had 
members of Camp Ashraf at my side. They were not armed, but I 
was proud to have them there. And when I look at those videos, 
I see something in addition. When I see those people rushing to 
rescue their friends, I know if I or the soldiers with me had 
been shot up, they would equally be rushing to our rescue, 
those are not terrorists, those were allies.
    Ironically, the State Department does not put Mahdi Army on 
its terrorist list, it doesn't put the Qods force. I have lost 
people to the Mahdi army, I have lost two. We have lost 
hundreds of the United States forces to Moqtada Sadr's Mahdi 
army, and Qod's force recently that was planning the Saudi 
Ambassador attack. Our State Department's response then was we 
need to see how high up the leadership this plot went. The 
antiterrorism for Iraq, I can assure everyone, it went all the 
way to Khameini.
    And the other thing State Department said is well, we 
should have increased diplomatic isolation. Louis Freeh and I 
were trying to figure that out. He said, what is that? To me it 
sounds like someone in State Department spent a lot of time in 
college watching Animal House, and we want to put Iran on 
double secret probation. The State Department claims to have 
intel. I have gone over the intel and I have provided them the 
information from Mr. Zebari, the foreign minister, Kurd, they 
said they didn't attack us. I gave it to the State Department 6 
months later, it came out they attacked the Kurds. And I went 
back, What are you doing? Oh, well, we don't talk to the people 
who put that out. The State Department is very stovepipe in 
what they are doing. This is the organization that paid Chalabi 
$33 million for a bunch of false information that we used to 
send our soldiers to war. 4,500 warriors later and tens of 
thousands of innocent Iraqis later, we know now Chalabi was 
lying the whole time. Fairness to the State Department and 
Defense Intelligence Agency, serving Donald Rumsfeld also 
provided a lot of misinformation.
    So it is not just the State Department. But I do submit the 
State Department employees today are serving Secretary Clinton 
no better than they were serving Colin Powell.
    As we heard earlier today, State Department wants to go all 
the way back to the founding of the PMOI. Well, why don't we go 
back to 1953 when a very popular Iranian Government was 
overthrown by our own CIA and a very brutal dictator was put in 
its place? The State Department never wants to do that, nor do 
detractors, they also claim it is a Marxist-Leninist 
organization. It was founded on equality between those led and 
those being led. Clerics don't have sole authority on the 
congregations, nor do they have sole authority to interpret the 
Koran. People call that Marx and Lenin? I call that Jefferson 
and Madison.
    Then we have the rumors, we heard a lot of them, and I hope 
today I will be able to address of lot of those rumors and take 
them apart one by one. I used to take them apart when I was 
base commander at Camp Ashraf, as did Julie Norman.
    We talked about review the FTO status, the fact and the 
law. Well, the fact and the law, they are wrongfully placed on 
that list, they are only foreign, they don't know threat 
against the United States, they are on my flank. And also, they 
don't have the means anymore. So if we talk about the fact and 
the law, they need to be removed. And then I hope we have a 
chance to talk about this putting them in a consolidated 
location because I have even more information, I think, than 
the State Department. Sir, I thank you.
    [The prepared statement of Colonel Martin follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                              ----------                              

    Mr. Rohrabacher. Thank you very much, whereas I am the only 
one left on the panel, I will proceed and take whatever time I 
will consume. Let me get this straight. Mr. Ambassador, the 
massacre that has already taken place until that is dealt with 
legally, and the people who committed that murder are brought 
to justice, or the role of the government is defined, that you 
are suggesting that it is then illegal under current law for us 
to sell arms to Iraq? Is that----
    Ambassador Bloomfield. May I just clarify.
    Mr. Rohrabacher. Yes.
    Ambassador Bloomfield. For 4 years I had the delegated 
responsibility for arms transfers as Assistant Secretary of 
State for Political Military Affairs. Under section 3 of the 
Arms Export Control Act, every recipient of U.S. defense 
equipment is required to utilize that equipment only for the 
purposes that it was transferred. Whenever there is a question 
of not using the equipment in accordance with the terms of 
transfer, the State Department is usually required to file a 
section 3 report to the Congress that explains the 
circumstances that have called into question the use of the 
equipment, and the law does point to a cutoff of arms in the 
extreme case of an egregious misuse of weapons. That is a very 
rare occurrence.
    I saw it once, I think in 1982, when Secretary Weinberger 
found a casing of cluster munitions on a pile of--well, it 
appeared in The New York Times on a pile of rubble in Beirut, 
and he terminated weapons to Israel until such time as they 
worked it out with the Americans.
    The other law that I mentioned----
    Mr. Rohrabacher. So we found a casing, a military item that 
was not sold to Israel in order to be involved with Lebanon or 
to be utilized in that fashion. And we immediately cut off 
aid----
    Ambassador Bloomfield. President Reagan cut it off.
    Mr. Rohrabacher [continuing]. Cut off aid to Israel.
    However, we now have a video of our arms shooting down 
innocent women and children, and Iraqi army officers engaged in 
aiming their rifles and shooting the guns themselves, that we 
don't retaliate at all against that.
    Ambassador Bloomfield. It is open-ended. The State 
Department is not always the fastest agency to answer the mail. 
And section 3 reports have been known to take months to 
deliver. I do not know the status of whether a section 3 AECA 
report has been required or is being prepared for the Congress.
    There is a second law implicated here, too. Senator Leahy 
had passed a human rights law I think about 10 years ago which 
applies in two different legislative vehicles, one to Defense 
Department and one to State Department security assistance. In 
the event of a possible gross violation of human rights by an 
armed force which is trained and equipped by the United States, 
there is supposed to be an investigation aided by the U.S. 
Embassy on the scene, reporting back to the State Department 
where they make a judgment as to whether gross human rights 
violations have occurred. The people who were specifically 
involved must never be allowed to receive U.S. training ever 
again.
    I wrote the guidance that went to Embassies worldwide for 
the Leahy law in the State Department, along with Lorne Craner 
who was the DRL Assistant Secretary.
    Mr. Rohrabacher. Now the double standard that you are 
talking about is just a bit overwhelming. And Colonel Martin 
mentioned the Mahdi Army. And of course we understand that the 
army Sadr has--do we call him the Ayatollah? What do we call 
this man?
    Colonel Martin. Sir, he is working on his Ayatollah status, 
but--I am serious--but he has not achieved Ayatollah yet.
    Mr. Rohrabacher. All right. Well, we understand that he 
personally murdered a fellow cleric. We know that. And we also 
know that his armed militias have killed a significant number 
of Americans, not to mention the large number of fellow Iraqis. 
And yet he is not on the terrorist list. Is that right, 
Colonel?
    Colonel Martin. Sir, he is not on the terrorist list. 
Neither is the Mahdi Army.
    Mr. Rohrabacher. But those folks at Camp Ashraf who are 
unarmed, they are on the terrorist list?
    Colonel Martin. That is correct. Those people who put 
themselves between my troops in danger and I had to haul them 
back. We have the guns. We will engage. They wanted to be 
between us and the people trying to kill us. They are the ones 
being called terrorists. Muqtada is not being called a 
terrorist. Hakim's Badr Corps is not being called a terrorist. 
And they were out there killing.
    Mr. Rohrabacher. Well, Ambassador Bloomfield made it a 
point to suggest that he had studied the background of the MEK 
and that he believed that even the MEK of 30 years ago was 
not--and it has been adjudicated by whom they were not 
terrorists even to that point?
    Ambassador Bloomfield. There is a 140-page judgment in the 
British court system that goes into great detail. There was a 
ruling by the counterterrorism magistrate in France this past 
April. They both consistently judge that terrorism is not the 
characterization for the activity that has been----
    Mr. Rohrabacher. Yeah. Let me note that we get into a lot 
of trouble in the United States with the word ``terrorist'' 
because we have such incredible double standards. And I 
personally believe that we need to have a definition of 
terrorism and stick to it. Even when it hurts our friends, we 
need to stick to it.
    In this case, we have a double standard in order to hurt 
people who are opposed to the mullah dictatorship, which is our 
worst enemies, and a double standard so that they are labeled 
terrorists while the man who--and whose army had killed a bunch 
of Americans and is allied with the country that wants to 
destroy stability and freedom in that region, he is not on the 
terrorist list. And the double standard is just beyond 
imagination.
    Colonel.
    Colonel Martin. Sir, it gets even worse. Just last week 
Maliki--and it came out in the news media in Iraq, where my 
sources are providing me the information. I am getting it from 
the streets of Iraq. Maliki has informed Muqtada that he will 
receive 1,500 officer positions, 750 each in the Department of 
Defense and the Department of Interior, of which Maliki is 
still the Minister of Defense and the Minister of Interior. So 
he controls the police, he controls the military, and also he 
has eight brigades directly assigned to him, and those brigades 
are totally infiltrated by Muqtada.
    Mr. Rohrabacher. Well, just remember that our State 
Department is very intense about this, trying to find a 
solution. And, as I said, snails can be very intense, but they 
are very slow or maybe they are not going to get the job done.
    Let me go back to the definition of terrorism. And I 
believe that what we have to do is to define terrorism as a 
group of people who are willing to commit acts of violence 
against civilian populations in order to terrorize them in 
order to achieve a political goal. And there are countries that 
are good countries that have sometimes sunk to the level of 
terrorism and there are other countries that, of course, just 
commit acts of terrorism and that is their modus operandi. Did 
you want to say something about that?
    Ambassador Bloomfield. If I may, Mr. Chairman.
    There is the law of war and the theory of the law of war. 
Michael Walzer is a great theorist of the law of war, and 
others have written about proportionality for many, many years, 
which is to say that once you have beaten the other side, you 
don't need to use excessive force. If it is enough to win, you 
have won. So even among conventional military forces, 
professional forces, there is doctrine which embraces a 
principle that you do not use force beyond sort of civilized 
limits. And terrorism breaches that egregiously by----
    Mr. Rohrabacher. Well, the civilized position is that if 
you have someone who is unarmed who is a civilian, acts of 
violence committed against those who work for a tyrannical 
regime should not be considered acts of terrorism by the 
definition that I proposed. And I think we need to make that a 
definition. That is the one I suggest.
    If, indeed, the MEK during the time of the Shah attacks 
supporters, people who are in the government of the Shah of 
Iran, they were attacking a nondemocratic government and power, 
and that is not necessarily--in fact, I don't think it is 
terrorism. Attacking the troops of a dictatorship is certainly 
not terrorism. And, frankly, I believe even attacking the 
military of another country should not be called terrorism, and 
we have done that in the United States numerous times. I don't 
care if they are planting to bomb in a club or whatever.
    But if they are killing--you put military personnel, 
whether they are U.S. or whether they are people from a 
dictatorship, that is an attack, that is an act of war, and it 
is not necessarily an act of terrorism.
    So even if the MEK did, in another lifetime with people who 
were never involved with the current people who are in the MEK, 
commit acts of violence that targeted the Shah's government, 
that is not necessarily terrorism; and if some American 
military personnel were killed, as long as they weren't 
American civilians, that would be an act of war against us but 
not an act of terrorism.
    Ambassador Bloomfield. If I could just say, I would hope 
you would agree with me, nothing that you are saying and 
nothing that we would say is to condone or encourage violent 
tactics as a way of achieving something.
    Mr. Rohrabacher. Correct.
    Ambassador Bloomfield. Conflict resolution runs deep in 
American history. And the attempt is always made by policy, if 
it is well done, to try to resolve issues through democratic 
means, through peaceful means, through negotiation, if 
possible, so that even going back to the Founding Fathers and 
Abraham Lincoln and others who talked about tyranny, violence 
is a last resort.
    So when the United States is looking at the facts and 
trying to judge people, what is the character of this group, 
when I read what people were saying about the MEK when I first 
focused on it earlier this year and then began to examine the 
reality, I could not reconcile the two; and that is what got me 
into the issue. Why is there a gap between what the media 
commonly says and even what the State Department terrorism 
reports say, and what the facts seem to point to, why the gap?
    Mr. Rohrabacher. Let me ask you about that, Mr. Ambassador. 
We had a witness here from the State Department, and his main 
testimony, a major part of it, was a history of the MEK. And 
where did you find areas of disagreement with that history?
    Ambassador Bloomfield. I don't want to focus solely on 
Ambassador Fried, who is a colleague and someone I have 
admired. He is trying very hard to----
    Mr. Rohrabacher. We know we can disagree with someone and 
still respect them.
    Ambassador Bloomfield. I think that the position he was 
repeating was consistent with his Department's position. And I 
think the box that the State Department stands in is the one 
that says, I am not looking at the other side of the conflict. 
I am just looking at acts of violence by one group. Here is 
what they did on that date. Here is what they did on this date.
    Nobody is disputing that armed resistance was part of the 
MEK's history. The question is, how did it start? What was 
their purpose? And this business of being an unregenerately 
negative Marxist, strange cult, human rights-abusing group, you 
picture a group of people whose minds you could never 
understand, sitting in a spider hole with a knife in their 
teeth.
    The history of this group, I am persuaded, is very much an 
intellectual history of students, students who, if you are as 
old as I am and studied political development and all the 
revolutions that have occurred in the past century, you know 
that when the colonial era started to end, countries were 
nationalizing oil. And Iran had a group of students that wanted 
to have their own autonomy, that didn't want to be dependent on 
foreign powers. Iran had a serious issue with Russia going back 
many years. And, of course, the coup against Mossadegh, who was 
a nationalist, restored the Shah to power. These were 
intellectuals.
    And you can read the papers. It is on the record of this 
hearing. You can click on all the links and you will see that 
in 1980 Massoud Rajavi had thousands of students on the lawn at 
Sharif University listening to him quote all the political 
philosophers who were probably on the side of postcolonial 
liberation.
    So we can have a debate over whether we have the identical 
politics or not. But that was the genesis of the group. They 
believed in something. They didn't believe in violence. They 
believed in rights-based democracy.
    Mr. Rohrabacher. Of course, the irony of what you are 
saying is that Mossadegh--the vehicle used by those who 
overthrew Mossadegh was the--cutting a deal with the same 
mullahs that later on overthrew the Shah. And it was the 
continuing payoffs from the CIA to those mullahs that kept the 
Shah in power as long as it did.
    Was that an inaccurate description?
    Ambassador Bloomfield. If you read the legendary history of 
John Foster Dulles and Allen Dulles in those Cold War years, 
the CIA took a lot of actions for reasons of state. I am not 
here to judge the people in power at that time. I have great 
respect for American public servants.
    Mr. Rohrabacher. That is a good way of not confirming what 
I just said.
    Ambassador Bloomfield. But what I am saying is that today 
we are making judgments as well, and we have to make judgments 
for reasons of state. And a lot of the things we are talking 
about here have to do with the reputation and honor of the 
United States.
    My whole focus on this issue is not to advocate one 
position. You have been elected to office. I am going to let 
you decide. But I am trying to set the information table 
straight. I believe that we are only getting part of the story. 
And if all I do is to give people a wider aperture and a better 
appreciation of what really happened here, I will be very 
content to let elected leaders in both branches on both sides 
of the aisle make the decision.
    Mr. Rohrabacher. Well, I am happy you are talking about 
elected leaders. Because I don't know anybody who elected those 
folks over at the State Department or the CIA. And I did read 
Eisenhower's memoirs--and I would recommend them--about the 
overthrow of Mossadegh. And it was just a very short 
description and it was a fascinating description of what went 
on.
    What we have got here is a situation that is coming to a 
head very quickly. And I wanted to know what you folks thought 
of the great suggestion--I might add that it was fascinating 
that Sheila Jackson Lee, who is not a member of this committee, 
who wanted to come in and make a statement and we were just 
running out of time, but I wanted to give her at least some 
time to get something in. And right there at the end, I think 
that was very profound, the point she made, and I wonder what 
you thought of that, is that--the suggestion that the President 
not meet with Maliki until he has agreed to at least extend the 
deadline on Camp Ashraf? What are all three of your opinions of 
that suggestion?
    Go right ahead, Colonel.
    Colonel Martin. Sir, first off, it is an outstanding 
suggestion.
    Maliki has been getting a free ride from our country. In 
2002, he was a street vendor in Damascus. Now, 3 years later, 
he was the Prime Minister. That man has made billions off the 
United States, and it pains me to see how much money this guy 
is getting.
    Joe Biden went over there and came back and said, ``Oh, we 
overestimate the Iranian influence in Iraq. No, we don't 
overestimate. We underestimate. And the people in Iraq on the 
streets can't believe it.''
    Somewhere Maliki has to be made to understand that we are 
not taken in by his hype, and we are getting a solid 
understanding of what is really going on inside that country. 
He has been working with Ahmadinejad, and his national security 
adviser Rubaie has been feeding Iran all kinds of information 
because I was getting it from the MEK what was being fed. And 
some of it was being fed to him by a State Department 
representative that was a continual source of embarrassment.
    So what Sheila Jackson Lee had said I greatly think is a 
good idea because somewhere we need to bring this guy under 
control. And I also think telling Iraq, you are not getting all 
this money because we are tired of making your people in 
positions of power very wealthy at the expense of the Iraqi 
people. Except Kurdistan, they are living in poverty.
    Sir, I yield.
    Mr. Rohrabacher. Okay. Dr. Ferris.
    Ms. Ferris. I was very intrigued when she asked that 
question. It seemed a very direct response to a very difficult 
situation.
    I think the U.S. has a lot of diplomatic economic tools 
that can be used to make it clear that there are certain 
limits. The deadline must be extended for closing the camp, 
solutions must be found, and we should use every means we--I 
didn't know about this section 3. But to me that sounds also 
like something we should pursue in terms of the way that the 
arms that we have supplied have been used.
    Ambassador Bloomfield. I do not want to sort of tear down 
the edifice that 8 years of military invention tried to build. 
I want Iraq to come out stable. I want it to come out a good 
neighbor to all. These negative tendencies that are being 
talked about I want to see minimized. I want it to be a country 
that is governed by the rule of law, that gives rights to all 
the communities. And, frankly, it is not for me to micromanage 
how the administration does these things.
    I recall another group of Iranians that were in imminent 
threat of loss of life. An earthquake had just happened in Bam, 
inside Iran. Nobody even called Washington. The Central Command 
air component commander just sent in C-130s with blankets and 
water and electricity and whatnot. We saved some lives.
    So no one can tell me that we don't have the logistical 
ability to do all sorts of things or the diplomatic ability to 
find a spot outside of the geography of Iraq where the whole 
shooting match--sorry for that Freudian slip--could be moved so 
that the U.N. can do its work and onward disposition can be 
processed.
    I recall a cabinet-level person, who I won't name, in the 
Bush administration when I was doing sensitive negotiations 
around the world who said, I am not interested in inputs. You 
know, don't tell me all the things you are doing. All we care 
about is the output. Did you get it done?
    And right now the only thing that matters is, will the 
3,400 lives at Camp Ashraf be unharmed as this U.N. mission is 
carried out? I don't know how long it will take. I don't know 
where it will occur. I don't know who will have to exert 
themselves to make it come about or how this conversation that 
seems to be in the air that can't take place with all the 
parties will finally be accomplished. It is not my task. But I 
am an optimist, and I am a believer that you can do amazing 
things if you are the United States if you want them done. It 
just has to be taken up at high levels.
    Mr. Rohrabacher. Well, Mr. Ambassador, let me suggest that 
you are a very knowledgeable person, and I certainly appreciate 
the depth of information that you have and made available to 
us. It has helped my understanding.
    But let me just suggest that, unless you are willing to 
make decisions, hold people accountable, rather than just 
leaving that to others, nothing is going to happen. I mean, we 
are going to lose. And the bottom line is, unless right at this 
moment we start holding people accountable and saying--and that 
is why I have repeated over and over again, if there is another 
massacre, the people at our State Department, if they have not 
removed this designation as a terrorist organization, they are 
partly responsible, if not culpable, if not some type of an 
accomplice in committing this murder.
    And, frankly, you are right. Things will get settled. But 
they are only going to be settled when those of us are willing 
to stand up and basically hold specific individuals accountable 
and kick them out if they do the wrong thing and not--just let 
these people who have been making these kinds of decisions 
continue in power.
    That is the reason you have oversight hearings in Congress, 
is to find out who is accountable and to hold them accountable, 
ask for explanations, give people a chance to give their side 
but come to a determination and figure out it is not just an 
idea that is the problem but there is a person over here, too, 
who is attached to that idea.
    And, right now, we are coming into this deadline. And the 
Europeans have been able to look at the truths that you have 
found through your research and have managed to get themselves 
to get the MEK off the terrorist list because they now 
understand that that designation, if it ever was justified, is 
not justified.
    But if we don't take it off and these people get massacred, 
it is those people in our establishment who have not done what 
the Europeans were able to do who are partly responsible for 
the death of innocent people. So that is what this is all about 
today. And it is about finding out just exactly what the 
details are but also making sure that we know that, if 
something doesn't happen, these guys at the State Department 
are going to be held accountable for it.
    You can answer that.
    Ambassador Bloomfield. If I could just say, Mr. Chairman, 
it seems to me that we have people in the room who have friends 
and relatives inside the camp. They are human beings. Many of 
them are educated human beings. They have a lifestyle which 
would surprise a lot of people. They are very worldly in many 
cases.
    This is a train wreck that hasn't happened yet. And not 
only is it imperative that it not happen, but I believe our 
reputation in Europe--you mentioned the Europeans. They are 
watching this very closely. And I am not here to say I know the 
one thing that will fix the whole problem. I know you are very 
focused on the listing issue. I have tried to be extremely 
careful to simply deal with the facts and to demand that the 
facts be----
    Mr. Rohrabacher. Oh, I don't think there is one thing that 
is going to solve this, even getting them off the terrorist 
list, but that will be a big step forward.
    Ambassador Bloomfield. I have not settled on final 
judgments, and I haven't advocated specific solutions. But I 
will put one idea forward. You did hear Ambassador Fried talk 
about trying to get the people at Camp Ashraf to participate 
more constructively, however he put it. And if they would only 
do their part, as it were, this could all be agreed, and we 
could figure out what to do next.
    I simply want to say that because the people at Camp Ashraf 
are not just 3,400 individuals, they are on the terrorism list, 
so the United States Government considers them part of a larger 
organization which has leadership in France. If it is too hard 
for the State Department officially to have a conversation with 
the people in France who could say yes or no--and I have two 
memos that they wrote basically offering all sorts of options 
to solve this problem, so I am mystified that the details are 
so hard--my point is, maybe if there is an outside party who 
could put a videoconference together and get Paris, Ashraf, 
State Department, CENTCOM, Iraq, and the U.N.--let's have the 
conversation. Let's stop the train wreck before it happens. I 
am an optimist. I believe it is possible.
    Mr. Rohrabacher. The people sitting on this side of the 
table can't make that happen. I mean, we can't. We are 
legislators, and we are not in the executive branch. What you 
just said could very easily happen if anybody with authority in 
the State Department would have determined that a long time 
ago. That should have been determined a long time ago.
    And, by the way, let me agree with you and let people 
understand, the people of Camp Ashraf are going to have to do 
their part as well. And there is certainly indications that 
they haven't been willing to reach people and to go the extra 
half mile as well. If we are going to save lives, everybody has 
got to contribute to the solution.
    Colonel, does this remind you at all of--I am sure you have 
read the history of Colonel Gordon in the Sudan where they knew 
that he was going to go under. And they knew he was--and I just 
remember that back in my reading back about 20 years ago how 
the British Government just wouldn't make a decision until 
finally they made the decision to help Gordon; and, by that 
time, he had been overrun and murdered.
    Colonel Martin. Sir, that specific one I don't remember. 
But this is exactly what is going to happen. And I don't think 
they are going to make it to December 31. I think Maliki is 
going to pull the same stunt he did with the execution of 
Saddam Hussein, and that was a despicable act.
    I was talking to Judge Poe about it earlier. Sam Houston 
taught us, you don't build democracies off lynchings. That is 
why Santana wasn't lynched.
    Muqtada al-Sadr had contacted Maliki and told him, I want 
Saddam executed tomorrow by my people. And Muqtada had promised 
his people that Saddam would not live to see the light of the 
new year. Maliki contacted General Gardner and said, I want him 
turned over. Gardner said, what are you talking about? He is 
already scheduled to be executed on the 10th of January. ``I 
want him now.'' And it was pursued within task force 134. 
``What is going on?'' And that is when it was revealed what 
Muqtada was up to.
    But the State Department weighed in, demanded that Saddam 
be turned over, and he was. And then he was delivered to face 
justice. And as you saw on the videos, that chanting ``Muqtada, 
Muqtada,'' and when Saddam was executed and then dropped to the 
ground and kicked and everything else, that is--and then, when 
that blew up on the videos, the State Department jumps out of 
the way. And we in the military take all the heat rounds as to 
why we allowed that to happen when, in fact, we objected.
    The Saddam execution is a lesson because now Maliki is 
going to jump before December 31. He attacked the first and the 
second time immediately after Secretary Gates--a very fine 
man--was in the country. Immediately after gives the impression 
that Secretary Gates blessed this. I know he didn't.
    Now Maliki is coming to see President Obama, and he is 
going to go back to Iraq just about the same time all U.S. 
troops are pulled out. I can see him attacking sooner than the 
end of the year. And if I may, sir, this is from Maliki's own 
political magazine and it is the center page where, when you 
open it up, it always opens. And here is what the article says.
    Mek organization, international terrorists from a previous 
dictatorship and the depth of western hypocrisy. The world 
crowded with hundreds of very dangerous terrorist organizations 
according to your laws. Mek is one of these organizations.
    It goes on.
    The history of the Mek organization is full of crimes 
against both Iraq and Iranian nations. After the rising of the 
Islamic Republic in Iran in 1979, Mek organization, with direct 
support of the West--and it goes on.
    This is an attack from Maliki's own political magazine on 
Europe and the United States as well as the MEK. Maliki knows 
most Americans don't read Arabic. And, as a result, this is the 
kind of stuff that goes unnoticed by the State Department 
people.
    Mr. Rohrabacher. Well, let me just note that when I was 
younger I remember seeing Mussolini strung up by his heels, and 
I had no sympathy for Mussolini. And I have seen dictators 
strung up by their heels, and I don't care what they did to 
Saddam Hussein. I don't care that. The people that we need to 
care about in this world are innocent, honest people that want 
to build a better world, not these gangsters who get power and 
slaughter innocent people.
    My father was in the military, too, so I understand that 
military people want things done with order or they view them 
as being destructive in the end. I personally disagree with 
that, but I respect that opinion. And I know you are a very 
honorable man and would state that principle for us.
    I think that what we are going to do is end it here, and I 
will just have a very short closing statement. But I will give 
each one of the witnesses 1 minute to summarize.
    Ambassador Bloomfield. Thank you very much, Chairman 
Rohrabacher. I am grateful for the opportunity to put on the 
record the summary of my inquiry into this.
    I repeat that I am not an advocate because I think there 
are already plenty of advocates on this subject. And the 
problem that I have seen, as I have looked at this problem, is 
that people are set in their views. And the views are far 
apart, and they are not dealing from the same base of 
information. So the approach I have tried to take is to find 
credible sources that will help people at least agree on the 
information; and if they have the same information, maybe they 
can have a conversation about where that takes us in terms of 
policy.
    The other point that I have emphasized as I have looked 
into this--and I spent 5 days in France last month and talked 
with lots of people, heard their stories; and it convinced me 
that there is an even deeper story than I thought. There is an 
untold story that needs to be understood in Washington. I do 
not want to see American policy flying blind, particularly at a 
time when the Middle East is undergoing such change.
    We talk about Iran's nuclear program. Most of that 
discussion is about how far advanced the technical program is. 
I am persuaded that the likelihood that they would use or even 
hand out a nuclear bomb to a terrorist group is small. The far 
higher likelihood is they would use the status of a nuclear 
power to do the things they are doing right now in Lebanon, in 
the Palestinian areas, in Iraq, in Bahrain, in Yemen, and in 
Iran. And this is the political agenda that the mullahs are 
following.
    We really have missed a big piece of the story, and I hope 
people will look at my prepared testimony and my August study 
as a resource. It has a lot of source documents you can click 
on and make your own judgment. I am not going to tell you what 
it adds up to, because I don't need to. But I hope the Congress 
will ask the intelligence community to confirm the tentative 
conclusions that I have brought forward.
    Thank you, sir.
    Mr. Rohrabacher. Thank you, Mr. Ambassador. And how about 
that for an academic approach?
    Dr. Ferris.
    Ms. Ferris. Thanks.
    Much of the discussion today and indeed around the whole 
issue is focused on the delisting and terrorism and so forth, 
which are important issues. But I would urge you not to forget 
the question of solutions, the concrete solutions for the human 
beings in this camp. Where will they go? If the delisting were 
to occur tomorrow, there would still be questions about access 
to the camp, about U.N. interviews, about coming up with 
solutions and, most of all, about protection and security of 
those people who are very much at risk today.
    Mr. Rohrabacher. Colonel.
    Colonel Martin. Sir, actually, I agree with you on the 
opinion of Saddam; and I made sure he knew it, too. My concern 
was, it empowered Muqtada, the way he was executed.
    And I also agree on the concern about moving out of Camp 
Ashraf. They have got their logistics bases, they have got 
their communications, they have got their support and their 
internal support with each other and, as a result, they have 
been able to endure all this psychological torment and 
everything else. Now to pick them up and move them to another 
location with the intent of breaking them down--and the word we 
originally were getting is maybe Camp Liberty.
    What is coming out in the Iraqi news media is they are 
going to move them down to Samarra and Nasiriyah, down into the 
Shia strongholds and also where the Badr corps is very strong 
and also Muqtada's army is very strong as well as the access to 
the Quds force. So to move them out of Camp Ashraf somewhere 
else in Iraq is like the story of the mouse that walked into a 
trap carrying his own cheese, except it is the MEK people who 
are going to be put into that trap.
    They need to be picked up and brought out of Iraq 
completely. I proposed to the State Department a long time 
ago--and we have got bases that BRAC is closing here in the 
United States. We have brought people to Guam. We have brought 
people to other locations. Let's just pick them up in their 
entirety, tell them, you have got one bag. Fill it up. Send in 
six super jets, large airliners, in Balad, which is just 20 
miles away, put them on the planes and bring them out.
    Unfortunately, the State Department has wasted a lot of 
time that decisions could be resolved. Now we are going on the 
line. And the Iranian democracy will not die with the residents 
of Camp Ashraf, should that happen, but it will be a very 
serious stain on the West, sir.
    Mr. Rohrabacher. Thank you very much, Colonel.
    And I would just close with some following observations, 
and that is: Number one, the mullah regime will someday fall. 
And let us make sure that these brave souls at Camp Ashraf who 
have stood as a symbol of resistance to the mullah regime are 
able to go home to a free and democratic Iran once the mullah 
regime is over. And that will happen. The mullahs are not a 
democratic government. They are a government that totally 
represses their opposition, controls the means of 
communication, and actually rules that country as a theocracy. 
And that is not the will of the Iranian people, by a large 
number of the Iranian people. So let's hope that that day comes 
soon.
    And had we had a strategy years ago to eliminate that 
regime by supporting the democratic elements within Iran, I 
believe all of what we are talking about today would be moot. 
And, instead, we not only have not done that; we have basically 
permitted the situation to get so bad that we may now end up 
with a situation where thousands of people may be slaughtered 
right in front of our eyes and there is sort of nothing we feel 
we can do about it. And we could sit there and watch this 
feudalistic, medieval type of concept of Islam take control of 
nuclear weapons that threaten not only stability but threaten 
the lives of people throughout that region, throughout the 
world.
    We have let this go too long, and now we have got a 
deadline by the end of the year just to save those lives. We 
have got to start holding people accountable, and we have got 
to start having specific goals in mind to achieve certain ends 
that will change the reality, change the direction of history.
    History isn't something that you inherit and have no say 
in. You make history. We make history. We make history by what 
we are willing to fight and die for and what we are willing to 
invest. And we need to make sure that the history of tomorrow 
is a history in which the mullah regime in Iran has not 
committed horrible crimes of nuclear weapons and other types of 
crimes, that they have already committed some of them.
    Letting the people of Camp Ashraf be murdered would be one 
of the worst defeats for those people who are struggling to 
create a more democratic and stable region--could possibly have 
absorbed. The people of Camp Ashraf, if they are murdered and 
the Iraqi Government gets away with this in cahoots, as I say, 
with the mullahs, people all over that region are going to 
know, well, look, the Americans even let the people of Camp 
Ashraf be slaughtered, knowing that it was coming.
    We can't afford to let that happen. That would be a huge 
defeat for the cause of freedom in the region and stability and 
peace. So we are not doing this just because we owe it to the 
people of Camp Ashraf as human beings. We believe that God 
gives rights to all human beings. We respect them. But we are 
also doing it because this will have a huge impact on the 
stability and the well-being of the entire region and the world 
and, yes, the stability and security of the people of the 
United States.
    So this hearing I think has added a great deal to the 
discussion and hopefully it will result in action being taken 
in these next 2 or 3 weeks that will prevent another tragedy 
like we saw just a short time ago.
    And with that said, this hearing is adjourned.
    [Whereupon, at 6:37 p.m., the subcommittees were 
adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                 <all>

</pre></body></html>
